<html>
<title> - COMBATING TERRORISM: OPTIONS TO IMPROVE FEDERAL RESPONSE</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
        COMBATING TERRORISM: OPTIONS TO IMPROVE FEDERAL RESPONSE
=======================================================================

                             JOINT HEARING

                               before the

                 SUBCOMMITTEE ON ECONOMIC DEVELOPMENT,
                    PUBLIC BUILDINGS, AND EMERGENCY
                               MANAGEMENT

                                 of the

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                                and the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
              VETERANS AFFAIRS AND INTERNATIONAL RELATIONS

                                 of the

                     COMMITTEE ON GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 24, 2001

                               __________

                      Committee on Transportation
                           Serial No. 107-11

                     Committee on Government Reform
                           Serial No. 107-58

                               __________

Printed for the use of the Committees on Transportation and Government 
                                 Reform



  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform







                       U. S. GOVERNMENT PRINTING OFFICE
72-381                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 2040-0001






             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL II, West Virginia
SHERWOOD L. BOEHLERT, New York       ROBERT A. BORSKI, Pennsylvania
HOWARD COBLE, North Carolina         WILLIAM O. LIPINSKI, Illinois
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
WAYNE T. GILCHREST, Maryland         BOB CLEMENT, Tennessee
STEPHEN HORN, California             JERRY F. COSTELLO, Illinois
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, District of 
JACK QUINN, New York                 Columbia
VERNON J. EHLERS, Michigan           JERROLD NADLER, New York
SPENCER BACHUS, Alabama              ROBERT MENENDEZ, New Jersey
STEVEN C. LaTOURETTE, Ohio           CORRINE BROWN, Florida
SUE W. KELLY, New York               JAMES A. BARCIA, Michigan
RICHARD H. BAKER, Louisiana          BOB FILNER, California
ROBERT W. NEY, Ohio                  EDDIE BERNICE JOHNSON, Texas
JOHN COOKSEY, Louisiana              FRANK MASCARA, Pennsylvania
JOHN R. THUNE, South Dakota          GENE TAYLOR, Mississippi
FRANK A. LoBIONDO, New Jersey        JUANITA MILLENDER-MCDONALD, 
JERRY MORAN, Kansas                  California
RICHARD W. POMBO, California         ELIJAH E. CUMMINGS, Maryland
JIM DeMINT, South Carolina           EARL BLUMENAUER, Oregon
DOUG BEREUTER, Nebraska              MAX SANDLIN, Texas
MICHAEL K. SIMPSON, Idaho            ELLEN O. TAUSCHER, California
JOHNNY ISAKSON, Georgia              BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             JAMES P. McGOVERN, Massachusetts
MIKE ROGERS, Michigan                TIM HOLDEN, Pennsylvania
SHELLEY MOORE CAPITO, West Virginia  NICK LAMPSON, Texas
MARK STEVEN KIRK, Illinois           JOHN ELIAS BALDACCI, Maine
HENRY E. BROWN, Jr., South Carolina  MARION BERRY, Arkansas
TIMOTHY V. JOHNSON, Illinois         BRIAN BAIRD, Washington
BRIAN D. KERNS, Indiana              SHELLEY BERKLEY, Nevada
DENNIS R. REHBERG, Montana           BRAD CARSON, Oklahoma
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
MIKE FERGUSON, New Jersey            MICHAEL M. HONDA, California
SAM GRAVES, Missouri                 RICK LARSEN, Washington
C.L. (BUTCH) OTTER, Idaho
MARK R. KENNEDY, Minnesota
JOHN ABNEY CULBERSON, Texas
BILL SHUSTER, Pennsylvania
JOHN BOOZMAN, Arkansas

                                  (ii)

  
?

 Subcommittee on Economic Development, Public Buildings and Emergency 
                               Management

                  STEVEN C. LaTOURETTE, Ohio, Chairman

ROBERT W. NEY, Ohio                  JERRY F. COSTELLO, Illinois
JOHN COOKSEY, Louisiana              MARION BERRY, Arkansas
MIKE ROGERS, Michigan                ELEANOR HOLMES NORTON, District of 
SHELLEY MOORE CAPITO, West           Columbia
Virginia, Vice-Chair                 JAMES A. BARCIA, Michigan
DON YOUNG, Alaska                    JAMES L. OBERSTAR, Minnesota
  (Ex Officio)                         (Ex Officio)

                                 (iii)

  
                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
DOUG OSE, California                 JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JIM TURNER, Texas
JO ANN DAVIS, Virginia               THOMAS H. ALLEN, Maine
TODD RUSSELL PLATTS, Pennsylvania    JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida                 WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   ------ ------
ADAM H. PUTNAM, Florida              ------ ------
C.L. ``BUTCH'' OTTER, Idaho                      ------
EDWARD L. SCHROCK, Virginia          BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

 Subcommittee on National Security, Veterans Affairs and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
ADAM H. PUTNAM, Florida              DENNIS J. KUCINICH, Ohio
BENJAMIN A. GILMAN, New York         BERNARD SANDERS, Vermont
ILEANA ROS-LEHTINEN, Florida         THOMAS H. ALLEN, Maine
JOHN M. McHUGH, New York             TOM LANTOS, California
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
DAVE WELDON, Florida                 ------ ------
C.L. ``BUTCH'' OTTER, Idaho          ------ ------
EDWARD L. SCHROCK, Virginia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                Nick Palarino, Professional Staff Member
                           Jason Chung, Clerk
           David Rapallo, Minority Professional Staff Member
                                CONTENTS

                               TESTIMONY

                                                                   Page
Boyd, General Charles G., USAF(Ret.), Executive Director, U.S. 
  Commission on National Security/21st Century...................    35
Clapper, Lieutenant General James, Jr., USAF(Ret.), Vice 
  Chairman, Advisory Panel to Assess Domestic Response 
  Capabilities for Terrorism Involving Weapons of Mass 
  Destruction....................................................    35
Cilluffo, Frank J., Center for Strategic and International 
  Studies........................................................    35
Decker, Raymond J., Director, Defense Capabilities and Management 
  Team, U.S. General Accounting Office, accompanied by Steve 
  Caldwell, Assistant Director...................................    21
Ellis, William W., Senior Specialist in American National 
  Government and Public Administration, Congressional Research 
  Service........................................................    23
Gilchrest, Hon. Wayne, a Representative in Congress from Maryland     8
Skelton, Hon. Ike, a Representative in Congress from Missouri....     9
Smithson, Dr. Amy E., Director, Chemical and Biological Weapons 
  Nonproliferation Project, the Henry L. Stimson Center..........    35
Thornberry, Hon. Mac, a Representative in Congress from Texas....    11

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Clay, Hon. William Lacy, of Missouri.............................    81
Costello, Hon. Jerry F., of Illinois.............................    93
Gilchrest, Hon. Wayne, of Maryland...............................   124
Gilman, Hon. Benjamin A., of New York............................   130
Oberstar, Hon. James L., of Minnesota............................   136
Shays, Hon. Christopher, of Connecticut..........................   140
Skelton, Hon. Ike, of Missouri...................................   166
Thornberry, Hon. Mac, of Texas...................................   179

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Boyd, General Charles G..........................................    49
Clapper, Lieutenant General James, Jr............................    52
Cilluffo, Frank J................................................    84
Decker, Raymond J................................................    97
Ellis, William W.................................................   110
Smithson, Dr. Amy E..............................................   170

                       SUBMISSIONS FOR THE RECORD

Shays, Hon. Christopher, of Connecticut:

  Embassy of Israel, statement...................................   142
  British Embassy, statement.....................................   146
  Embassy of Japan, statement....................................   151
Daniels, Hon. Mitchell E., Jr., Director, Office of Management 
  and Budget, statement..........................................   164


        COMBATING TERRORISM: OPTIONS TO IMPROVE FEDERAL RESPONSE

                              ----------                              


                             APRIL 24, 2001

        House of Representatives, Subcommittee on Economic 
            Development, Public Building, and Emergency 
            Management, Committee on Transportation and 
            Infrastructure, joint with the Subcommittee on 
            National Security, Veterans Affairs and 
            International Relations, Committee on 
            Government Reform,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 3 p.m., in 
room 2167, Rayburn House Office Building, Hon. Christopher 
Shays, chairman of the Subcommittee on National Security 
presiding.
    Mr. LaTourette. The subcommittees will come to order.
    Today's hearing is the first held by my subcommittee during 
this Congress. First, I would like to thank my fellow co-
chairman of this hearing, Congressman Chris Shays, for working 
with me to put this hearing together. I am very pleased to be 
working with the Government Reform Subcommittee on National 
Security, Veterans Affairs and International Relations, of 
which I am a member, on this issue.
    I would also like to thank all of our witnesses for their 
participation in this important hearing to discuss proposals 
for improving the Federal response to terrorism.
    Work accomplished by the Transportation and Infrastructure 
Committee during the last Congress has shown that in the wake 
of the Oklahoma City bombing we have taken great strides to 
improve the Federal efforts to combat terrorism. Unfortunately, 
we still have a long road ahead before we will achieve 
preparedness.
    Last week marked the passing of 6 years since 168 Americans 
were killed and many more injured in the heinous attack. It is 
my hope that through this hearing and our continued efforts in 
this area we can prevent future attacks--or at the very least, 
minimize the injuries and disruption caused by terrorist 
attacks, including those with chemical, biological or 
radiological agents.
    Since the bombings of the World Trade Center in 1993 and 
the Murrah Federal Building in 1995, Federal spending for 
terrorism programs has increased without control. More than $11 
billion will be spent in fiscal year 2001 by at least 40 
departments and agencies administering counter-terrorism and 
preparedness programs. This figure is nearly double the amount 
spent 3 years ago. And yet, there is no single Federal entity 
in charge of this effort, no single person who can be brought 
before Congress to discuss an overall approach to combating or 
responding to terrorism, and no comprehensive strategy to guide 
this massive spending effort.
    In fact, the Federal Government does not even know what 
programs exist or what they are designed to accomplish.
    Each of the proposals we will examine today is aimed at 
defending our country and communities against terrorist 
attacks.
    The first proposal, H.R. 525, was introduced by 
Transportation Committee member Wayne Gilchrest. It would 
create a Presidential council to draft a national strategy and 
organize the Federal effort through the existing agency 
structure. It would eliminate duplication and fragmentation of 
Federal efforts by coordinating with agencies during the budget 
process to bring programs in line with the strategy. This 
proposal closely tracks a similar measure, H.R. 4210, 
introduced by former Representative Tillie Fowler, that passed 
the House unanimously last Congress.
    We will also address bills introduced by Congressman Ike 
Skelton, H.R. 1292, and Congressman Mac Thornberry, H.R. 1158. 
The Skelton bill would require the designation of a single 
individual within the Federal Government to be responsible for 
this effort. It would also require the drafting of a strategy 
to address terrorism.
    The Thornberry bill would transform FEMA into the 
``National Homeland Security Agency'' which would include the 
Coast Guard, Border Patrol, and Customs Service. This new 
agency would focus on operational planning and coordination.
    I look forward to hearing more about all of these proposals 
during the course of today's hearing.
    Today signifies another step toward adding some sense to 
this Federal spending spree. It is our duty to impose 
accountability and require a reasoned approach to this effort. 
We must determine the threats and risks that exist in our 
communities and spend our tax dollars addressing them. We 
simply can't wait another 6 years before we know that our local 
emergency personnel are prepared to respond to a terrorist 
attack.
    This hearing continues the process of reforming our 
counterterrorism effort. It is my hope that we can accomplish 
some significant reform during this session of Congress. Before 
we commence, I want to commend the gentleman on our first panel 
for introducing legislation to address this issue. I look 
forward to hearing the testimony from all of our witnesses and 
I'd now like to yield to the chairman of the Government Reform 
Subcommittee, Mr. Shays, for any comments he would choose to 
make.
    Mr. Shays. Thank you, Mr. Chairman. A joint hearing on 
these important legislative proposals is particularly fitting, 
because terrorism crosses so many jurisdictional and 
substantive domains. Only a cross-cutting, unified approach 
will enhance Federal counterterrorism efforts and help us to 
avoid the false choices often posed by narrow legal and 
bureaucratic boundaries.
    For example, the bills we consider today would appear to 
present mutually exclusive options regarding the focal point of 
Federal counterterrorism policy. One approach would place that 
responsibility in the Executive Office of the President, 
leaving the current agency structure in place. The other would 
consolidate key homeland defense functions in a single cabinet 
level department.
    But for this hearing, these options would have been 
considered by separate committees. Instead, we asked our 
witnesses this afternoon to describe the relative merits and 
challenges of both concepts in the hope that overall executive 
branch coordination and the role of a lead homeland defense 
agency can be clarified and strengthened.
    In January, the subcommittee wrote to Dr. Condoleezza Rice, 
the President's National Security Advisor, concerning the need 
for stronger leadership and a more coordinated Federal effort 
against terrorism. She informed us a review of counterterrorism 
organization and policy is underway. But we needn't wait for 
the results of that review to begin consideration of proposals 
to correct longstanding and widely noted deficiencies in 
Federal structure and coordination.
    Previous subcommittee hearings led us to the conclusion the 
fight against terrorism remains fragmented and unfocused, 
because there is no one in charge to develop a coordinated 
threat and risk assessment, articulate a national strategy, 
measure progress toward defined goals or disciplined spending. 
Legislation to restructure the Federal effort to combat 
terrorism should address those weaknesses.
    Almost a decade after the dawn of a harsh new strategic 
reality, international terrorism aimed at our military and 
civilian personnel abroad and here at home, these bills address 
today's equally stark realities. As a Nation, we are not ready. 
As a Government, we are not prepared.
    Our witnesses this afternoon bring us the benefit of their 
substantive experience, substantial experience and expertise in 
this area. On behalf of the Government Reform Subcommittee on 
National Security, Veterans Affairs and International 
Relations, I thank them for their time and their testimony. 
Again, Mr. Chairman, I thank you for this joint hearing.
    Mr. LaTourette. I thank you, Mr. Shays.
    Mr. Berry of Arkansas, filling in for the distinguished 
ranking member of our subcommittee, Mr. Costello, indicates he 
has no statement to make. I'd now yield to the ranking member 
of Mr. Shays' subcommittee, the gentleman from Ohio, Mr. 
Kucinich.
    Mr. Kucinich. Thank you very much, Mr. Chairman. Good 
afternoon. I want to welcome the distinguished members who will 
be discussing their respective bills today. Let me also welcome 
the other witnesses who took time out of their schedule to 
testify. I would like to briefly raise several points.
    First, GAO has stated in past hearings that Federal 
priorities in spending should be based on a comprehensive 
threat and risk assessment. The logic was that until we 
identify the threats, evaluate their likelihood and craft a 
strategy to address them, we have no basis upon which to build 
a national strategy, and we have no guarantee that spending is 
properly apportioned among various programs.
    I'd assume that such a threat and risk assessment would 
evaluate all terrorist threats, foreign and domestic, and 
prioritize all Federal counterterrorism programs. After 
reviewing the bills, however, it appears that some of the 
proposals are limited to domestic preparedness programs alone. 
I wonder, therefore, how these proposals could escape the same 
criticisms made of the current structure. In other words, how 
do we know we're spending the correct amount on domestic 
preparedness vis-a-vis other counterterrorism initiatives, such 
as border patrol, intelligence gathering and international law 
enforcement cooperation efforts.
    Taking this one step further, focusing on terrorism alone, 
might even be overly narrow. One could argue that a truly 
comprehensive threat and risk assessment should take into 
account all threats, regardless of their origin, whether our 
embassies are threatened by military or rebel forces, for 
example, may have different political implications. But the 
security concerns are very similar. As we know, the line 
between state actors, state sponsored actors and insurgent 
groups continues to blur.
    Related to this issue, in a recent National Security 
Subcommittee hearing, a few of us had a candid exchange with 
some of our expert witnesses about the perception of American 
citizens, American Government and American corporations. These 
individuals, who have spent many years living and working 
abroad, all cited the existence of anti-American sentiment that 
pervades many foreign countries to various degrees.
    For me, this underscores the need for discussion of the 
effects of American foreign policy and American corporate 
activity on threats to American interests. We cannot assess 
risk and develop national counterterrorism strategies, divorced 
from the larger reality of our role in this world, and the 
perceptions of our actions abroad.
    In other words, we must look not only for responses to 
threats, but also for ways to eliminate the currents of enmity 
from which these threats arise. Diplomacy in this regard can 
provide as much protection as strengthening our borders or 
hardening our embassies.
    GAO has stated that there is no single individual 
accountable to Congress with authority to make counterterrorism 
decisions and effect budgetary priorities. Although some of the 
proposals create new positions, some of which are subject to 
Senate confirmation, I did not see any proposal that would 
confer power to direct the spending of other agencies such as 
the Departments of Defense and State, which both perform 
substantial counterterrorism functions.
    Again, this relates to the need for a risk assessment that 
considers all manner of threats to American interests and a 
counterterrorism strategy that articulates more than simply a 
plan for domestic consequence management.
    Finally, at the last terrorism hearing before our 
subcommittee, I raised the issue of civil liberties. Other 
various proposals say they would ensure the protection of civil 
liberties. I have yet to hear how these proposals would do so. 
The protection of civil liberties must be included in any of 
our discussions. I would be very skeptical of any proposal that 
would jeopardize civil liberties. A properly conducted and 
comprehensive risk assessment, threat and risk assessment, is 
mandatory and preliminary to a proper assessment of the impact 
on civil liberties. Civil liberties, freely exercised in a free 
society, remain a strong protection against terrorism.
    I would appreciate if our witnesses today could address 
these fundamental concerns. I thank the chairman and Mr. Shays 
for holding this hearing.
    Mr. LaTourette. I thank you very much. I'd now like to 
yield to Mr. Gilman of New York for his observations.
    Mr. Gilman. Thank you, Mr. Chairman. I want to commend our 
chairmen, Mr. LaTourette and Mr. Shays, for bringing us 
together on this important hearing. I'm pleased to join our 
colleagues today who will be making a further examination of 
the Federal effort to confront and combat terrorism here in our 
own Nation.
    We've often focused on this grave threat to innocent 
persons and property only when it's been in the headlines as a 
result of an act of terrorism, too much of a band-aid approach. 
The Federal Government, pursuant to various Presidential 
directives, began over the last decade to concentrate on this 
problem, and regrettably, well-intentioned efforts too often 
have wound up being parochial, designed to shore up security of 
a given agency's assets, their personnel and traditional 
functions. The effort to coordinate anti-terrorism planning 
among Government entities at the Federal, State and local level 
has faltered, and the end result has been a fragmentation of 
responsibility that features turf protection and a 
proliferation of resources among some 40 Federal agencies.
    The three legislative proposals before us today seek to 
correct that situation by assigning a central authority to 
direct our government's anti-terrorism efforts. A similar 
effort has been underway since the creation of the Office of 
the National Coordinator for Security, Infrastructure 
Protection and Counterterrorism in the mid-1988 period within 
the National Security Council. The national coordinator of that 
program provides advice, but lacks any authority to direct or 
to assign agency budgets for counterterrorism efforts. And 
therein may be the problem.
    I believe budgetary authority, and not just the amount of 
money authorized and appropriated, is central to fixing the 
most important problem in our plans to thwart domestic 
terrorism. Any solution that we propose must give the central 
coordinating entity responsibility to set terrorism related 
budgets in order to establish clear lines of direction and 
responsibility. Without that kind of a control, the anti-
terrorism coordinator is at the mercy of agencies focused on 
their own albeit virtuous interests, but pulling in too many 
directions.
    More generally, prevention should be at the center of any 
anti-terrorism coordinator's focus. Better human intelligence 
on possible planned attacks is a key to foiling such threats. 
In our recruiting to develop better human intelligence, our 
government has exercised due responsibility and due caution 
over contact with persons involved in human rights violations. 
There is a time, however, when higher interests prevail, and 
such contacts become vital to preventing future violations of 
human rights resulting from any terrorist attack.
    In conjunction with the efforts to acquire better human 
intelligence, our Nation should also put greater emphasis on 
international cooperation with police in other agencies in the 
fight against terrorism. At this point, terrorists often turn 
to criminal elements for stolen cars, for explosives and other 
ingredients in planning any kind of a terrorist attack.
    It seems to me that the FBI and other U.S. law enforcement 
training for police forces overseas would serve to improve our 
international cop to cop contacts, expanding our terrorist 
information network. Mr. Chairmen, it is long overdue that we 
provide a central authority with a comprehensive national 
strategy to direct and coordinate our Nation's fragmented anti-
terrorism efforts.
    I want to thank our chairmen again for continuing these 
hearings, and we look forward to the testimony of our three 
distinguished witnesses from the House as we seek to craft 
appropriate solutions.
    Thank you, Mr. Chairman.
    Mr. LaTourette. I thank the gentleman. Ms. Holmes Norton.
    Ms. Norton. Thank you very much, Mr. Chairman. If I may, 
I'd like to thank both of our chairmen, Mr. LaTourette and Mr. 
Shays, for their very sensible beginning of a solution. If 
Members of two subcommittees can see the problem and get 
together, perhaps we can get the respective agencies together 
as well.
    And may I thank the members who have devoted some 
considerable time and very deep thought to what, in my view, is 
the most serious, major problem confronting our society today, 
and for which there is no strategy: no one can doubt the rise 
of worldwide terrorism. We can all be grateful that as a matter 
of fact, we have experienced so little of it.
    I am constantly amazed that we have experienced so little 
of it, and believe that the major reason for this has to do 
with the personnel who control our borders and keep people from 
entering this country who might have been most inclined to 
engage in some such terrorism. Although I do note that the only 
major act of domestic terrorism in this country was the work of 
an American.
    As the member who represents the Nation's Capital, I am 
ashamed of how our capital looks. When your constituents come 
to visit you in our capital, I can assure you that they are, 
and they comment upon, how astonished they are at how our 
capital looks. The capital is being closed down in our midst. 
You don't see it because you come to work every day.
    But your constituents see it. They came 3 years ago to 
bring a sixth grade class, and they come back now and it looks 
different. And they know it, and they say it. They see the 
barricades and they're troubled.
    They will ask me, has there been an incident here? When I 
pass by and they say, this is the member who represents the 
Nation's Capital, did you have something happen here? Can you 
imagine what children think when they come to the Nation's 
Capital and every important building is surrounded by 
barricades of the kind that might have been easily used in the 
19th century if you were trying to protect yourself against 
terrorism?
    Because I don't see any advance over what might have been 
used then over what we are using here. I believe what the 
members on the dais are doing, the members who have prepared 
legislation are doing, is most important. But I would like to 
suggest today that it is time that we added a layer to our 
thinking about how to keep an open society in a world of rising 
terrorism.
    My friends, that is the challenge, not how to combat 
terrorism alone. We can all get together and figure out ways to 
keep them out. But would you want to live in a society that 
only figured out ways to keep them out? Or to keep enemies from 
within from committing acts of terrorism?
    I believe that we need to look at terrorism in the context 
of maintaining an open democratic society. If you want to 
really grapple with this problem, you cannot simply deal with 
one aspect, albeit a hugely important aspect of it. Because you 
can deal with that aspect and end saying, how could we have 
done this to ourselves? Is there no better way to do this?
    May I suggest that I think that beyond ourselves we have 
to, in order to come to grips with what is a problem that has 
never faced the world before, at some level and in some ongoing 
working forum bring together the best minds in the society. And 
I do not simply mean security minds, albeit they are 
indispensable minds. I mean people who know how to think about 
the kind of society in which we live, the society's 
intellectuals, the society's security people, the society's 
police people, the people who understand what kind of a society 
it is, and let them all help us gather this problem and think 
this problem through.
    We've done this in the past, when we had problems we didn't 
know what to do with. We did it in Los Alamos. We did it with 
the Kerner Commission came forward. We realized that we did not 
have all the answers, or that we were all grappling with one 
part of the aspect of the beast.
    We need an approach that takes full account of the 
importance of maintaining our democratic traditions, while 
responding adequately to a very real and very substantial 
threat that terrorism poses. Are you proud that the best your 
country could think to do after the outrageous, stunning 
bombing in Oklahoma City was to close down America's main 
streets? Is that the response of the world's greatest power, of 
its most advanced technological power?
    If so, we are truly bankrupt. And I do not believe we are. 
But I do not believe we have brought to the table all of those 
that are necessary to help us think through this problem. We 
are called upon to provide ever higher levels of security in 
public spaces, while somehow remaining just as free and open as 
we were before there was any worldwide terrorist threat. As 
yet, our country does not begin to have, has not begun to do 
any of the thinking through of a systematic process or strategy 
for meeting the dual challenge of securing us against terrorist 
threats and maintaining the open democratic society which is 
all that we stand for.
    Before he left, I discussed with Senator Daniel Moynihan an 
approach that would put the people I'm calling the best minds 
in society together at a table. And he was very taken with it. 
Unfortunately, he has retired. I am not giving up, and I regard 
this hearing as one way of informing me about an indispensably 
important aspect of this problem. I thank our Chairs and all 
who have been involved in preparing legislation for their 
contribution.
    Thank you, Mr. Chairman.
    Mr. LaTourette. I thank the gentlelady.
    If there are no further opening statements, I would now 
like to call up today's first panel. This panel consists of 
three very distinguished Members of the House of 
Representatives, who are to be commended for their work and 
their leadership in addressing the problem.
    We're honored to have with us today Mr. William Gilchrest 
of Maryland, Mr. Mac Thornberry of Texas and Mr. Ike Skelton of 
Missouri. And we'd now like to turn to you, Mr. Gilchrest, 
because you are a long recognized champion of the 
Transportation Committee, a champion of wetlands environments 
everywhere, and now you're showing your versatility with H.R. 
525.

STATEMENT OF HON. WAYNE GILCHREST, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MARYLAND

    Mr. Gilchrest. Thank you, Mr. Chairman, Mr. Shays, for the 
opportunity to testify here this afternoon. Part of this is in 
recognition of terrorist activities for the Nation's ecosystems 
as well, I'm sure, and certainly for our wetlands.
    I would like to very briefly respond to some of the 
comments that have been made by the members of the committee 
toward our three bills. I think that Mr. Skelton and Mr. 
Thornberry and myself recognize that each of us doesn't have 
all the answers to this problem, and that a collaboration of 
our three proposals might be best at the end of the day.
    But my particular bill certainly doesn't deal with the 
comprehensive problem of terrorism in an international way from 
let's say, Chestertown, MD on the Eastern Shore to a city in 
Pakistan. But it does deal specifically with the nature of the 
problem, with our first responders here in the United States.
    When someone sees a building blow up or a possible 
terrorist activity, using, God forbid, radioactive material, 
germ warfare, chemical warfare, they call 911. And if you live 
in Chestertown, that's probably a retired man in that 911 
dispatch office that's going to get the call. He will then call 
a volunteer at a local volunteer fire department who will call 
the paramedics, who are also volunteer people. And they will be 
the first people to respond.
    Our effort is in some way small steps, immediate steps to 
take provisions to coordinate as much as is possible all the 
resources of this country to help those first responders. This 
bill is not a massive, comprehensive overhaul of Federal 
approach, this Nation's approach to terrorist activity. And I 
recognize that is a good idea.
    Also, Mr. Kucinich made a comment, very good comment about 
civil liberties. I would suggest that in our three bills it is 
inherent that constitutional rights of your civil liberties 
will certainly not be denied by any of these bills. If 
anything, they will be enhanced because of the recognition of 
people's education to respond to these kinds of disasters.
    And Ms. Norton, your comments about combating terrorism in 
a free society are excellent comments. How do we do that? Do we 
continue to increase the barricades and reduce the access to 
our public buildings because of the threat, the real threat of 
terrorism? So we do need to discuss that issue. And our U.S. 
Capitol must continue to be the most accessible public building 
in the world, which it has been for some time.
    I think the legislation before you in the form of these 
three bills makes those concerns about terrorism, about civil 
liberties, about access to public buildings, about responding 
quickly and in a coordinated fashion to those volunteers 
calling 911, that's going to happen with and through these 
kinds of discussions.
    Mr. Chairman, what I'd like to do is go through some very 
brief points about what H.R. 525 does. 1, H.R. 525 establishes 
a President's council within the Executive Office of the 
President to coordinate Government-wide efforts for improving 
preparedness against domestic terrorist attacks. The bill is 
the right approach because it raises the profile of domestic 
preparedness by placing the formulation of the national 
strategy into the Executive Office of the President. We don't 
say specifically how this is to be done or which agencies are 
to participate in it. This is up to the President.
    The council will include representation from each Federal 
department that has an important role to play in the 
development of that strategy. The council will participate in 
agency budget processes, making recommendations to accomplish 
the goals of a defined national strategy. It also improves 
accountability by directing the council to provide clear budget 
recommendations to the Office of Management and Budget. With 
those recommendations, it would be required to follow the 
national strategy.
    We've increased the amount of money used for domestic 
terrorism by billions of dollars over the last few years. And 
yet, the members on the committee have all testified in one way 
or another that we still have a fragmented strategy. Well, it's 
important for the budget to be clear and succinct on how we're 
going to spend those dollars. H.R. 525 will help to better 
coordinate the Federal response to other major disasters. It's 
not only for terrorist activities, but major weather disasters.
    And I'd like to conclude with, the bill is designed to 
afford the President the latitude and the flexibility to be 
able to work with his staff to create domestic preparedness 
plans that incorporate the recommendations of all the Federal 
agencies, streamlines the budget process, incorporates needs of 
State and local first responders, those folks in Chestertown 
that made that 911 call, and to find a level of preparedness to 
guide our national efforts in order to deal with the existing, 
emerging and evolving nature of domestic terrorism and natural 
disasters.
    And I thank the chairmen for the opportunity.
    Mr. LaTourette. We thank you.
    Mr. Skelton.

  STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MISSOURI

    Mr. Skelton. Thank you very much, Chairman LaTourette and 
Chairman Shays, for this opportunity to appear before you 
today.
    I think all of us today would agree that our country needs 
to improve its ability to provide security for our citizens. 
Unfortunately domestic terrorism is an increasing national 
problem. The sad truth is that the various governmental 
structures at all levels now in place do not operate in an 
efficient, coordinated and coherent way to provide adequate 
homeland security for our citizens. As a matter of fact, recent 
GAO reports indicate that some 43 different Federal agencies 
deal with this issue.
    Part of the reason for the lack of coherence in our 
domestic terrorism prevention is that terrorist attacks can 
come in many forms. They can be intercontinental ballistic 
missiles, crude home made bombs, computer intrusions that would 
disable either a power grid or an air traffic control system, 
conventional chemical, radiological, biological weapons may be 
involved. An attack could come at our borders, our places of 
government, our military installations or places where people 
congregate for lawful events.
    The process of identifying and acquiring and planning the 
use of resources needed to prevent, on the one hand, or 
respond, on the other, are very complex and involve several 
executive departments and agencies at the various levels, 
Federal, State and local. I do not believe we presently have an 
adequate, comprehensive government wide national strategy 
concerning the role of the U.S. Government and the many facets 
of homeland security.
    This is a war. This is a war against terrorism. Many 
aspects of it are unknown until we find out by way of 
intelligence or by way of an occurrence coming to pass. In 
order to attack these threats, just like we had an effort, a 
successful effort, against Nazi Germany, there was a strategy 
before any decisions were made as to how to conquer Nazi 
Germany in Europe.
    The bill I've introduced, H.R. 1292, recognizes the 
deficiency and directs the President to develop and implement a 
national homeland security strategy and points out in Section 
4(b) that the President shall designate a single official in 
the Government to be responsible for and report to the 
President on homeland security.
    The first thing we have to do is study the threats and 
inventory our capabilities, our resources, and devise an 
overall strategy on how to best address the problem. Ladies and 
gentlemen of these committees, it's premature to specify the 
organizational structure and shape the Federal homeland 
security operations until we have this strategy in place, until 
we know what we are going to have to face.
    At the same time, I know that any national strategy must 
include certain components. For instance, a strategy only makes 
sense if you identify the threats against which you must be 
prepared to respond. Any strategy will involve roles for 
existing governmental agencies, and we must make those roles 
explicit. The bill introduced tries to outline the broad 
perimeters and the components of a national homeland security 
strategy without being overly prescriptive about the specific 
strategy.
    Thus, because in my view, we in Congress are not in the 
best position initially to know what should go into the 
homeland security strategy, they will have to be carried out by 
the executive branch. The President, as chief executive, 
initially is in a far better position to make those 
determinations. And as ranking member of the Armed Services 
Committee, I know that any homeland security strategy will have 
to make use of our military assets, make use of our military 
capabilities.
    But I can't tell you specifically how to make best use of 
our military, because those bureaucratic decisions are best 
left to the military and executive branch to make those 
recommendations. The President and his departmental secretaries 
are in the best position to know those answers to those issues. 
As a result, this bill directs the President to devise and 
implement this strategy.
    However, I also recognize that Congress has obligations to 
the country for homeland security. And we do, after all, 
authorize and appropriate the funds that will make execution of 
any strategy possible.
    Therefore, my bill requires the President report to 
Congress on the progress and the process and the time table for 
development of homeland security strategy, so that we here in 
the Congress can adequately have the opportunity to intervene 
legislatively should that become necessary. We all recognize 
that domestic terrorism is a growing problem. We all want our 
Government resources to be used in the most effective way.
    My bill simply reflects my effort to keep the horse before 
the cart to require the development of a comprehensive national 
homeland security strategy before we start implementing 
operational solutions to the problems. We have to have the 
strategic thought in mind before we can start adding up the 
techniques thereof. Thank you.
    Mr. LaTourette. Thank you, Congressman Skelton.
    Mr. Thornberry.

STATEMENT OF HON. MAC THORNBERRY, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Thornberry. Thank you, and I appreciate the opportunity 
to testify before both subcommittees. But I appreciate even 
more your having the hearing. Because if you believe, as I do, 
that one of the primary reasons we have a Federal Government to 
begin with is to defend the country, then we're all going to 
have to spend a lot more time and effort discussing the issues 
around homeland security.
    There have been a number of studies over the past couple of 
years which mostly all come to the conclusion that we are more 
vulnerable here at home than we have been in the past. Others 
out in the world have realized that you don't hit us where 
we're strong, you look for our weak points.
    I noticed, for example, there's an article in last week's 
New Orleans paper which publishes a CIA translation of a 
Chinese report which says, you don't hit the United States on 
conventional military, you use computer viruses, information 
warfare and stock market manipulation as ways to disrupt the 
country.
    The Commission on National Security in the 21st Century, 
upon which my bill is based, says that a direct attack on 
American citizens on American soil is likely over the next 
quarter century. And we spend a fair amount of time talking 
about chemical, biological, nuclear weapons. We have the 
computer threat. These days, we have to worry quite a bit about 
livestock diseases or something getting into our food supply. 
There are all sorts of ways to complicate our lives.
    Let me give you one fact which certainly caught my 
attention. Every day, $8.8 billion worth of goods, 1.3 million 
people, 58,000 shipments and 340,000 vehicles enter our 
country. And the Customs Service is able to inspect 1 to 2 
percent of them. The volume of trade has doubled since 1995. A 
lot of people think it would double over the next 5 years.
    We have got to do something, and you all have seen the 
reports that say, we are not well organized to address this 
threat. Homeland security is a big, complicated issue. 
Certainly my bill, none of the bills, solve all of the problems 
or address all the issues. But if we wait around until we get 
all the issues studied and solved, then we will do nothing. And 
I think that would be a great tragedy.
    We absolutely have to have a strategy on how we're going to 
deal with these issues. But that strategy has to be evolving. 
It's never going to be a final product. In the meantime, we 
have to make sure that the efforts are getting adequate 
resources and, in my view, we also have to deal with some of 
the organizational deficiencies.
    President Eisenhower put it pretty well. He said, the right 
system does not guarantee success, but the wrong system 
guarantees failure. Because a defective system will suck the 
leadership into the cracks and fissures, wasting their time as 
they seek to manage dysfunction rather than making critical 
decisions. I think that's where we are.
    Again, my bill does not even try to deal with all of the 
organizational problems. But it does try to get our arms around 
some of the key deficiencies. First, it would create a national 
homeland security agency, building upon the existing FEMA 
structure. The reason it builds upon FEMA are a lot of the 
reasons that Mr. Gilchrest just talked about. The first people 
out there are going to be State and local folks. FEMA already 
has a relationship with those people. It already has 10 
regional offices. It makes sense to have this integration from 
the Federal down to the State and local level, to build upon 
that structure that is there.
    This entity would be one focal point and one contact point 
for the retired guy who's hanging out at the fire station who 
takes that 911 call, or for the National Guard at the State 
office or whoever it is, there's one focal point so that 
somebody knows who to contact.
    It's also one focal point, by the way, to coordinate other 
Federal entities, like the Centers for Disease Control or the 
DOE labs, the intelligence folks. It brings it together, and it 
puts priority on planning and coordination, to make sure that 
we are getting our act together and doing it well with one 
person who's responsible, which is a point in Mr. Skelton's 
legislation.
    What it would do then is bring several other agencies under 
that umbrella. In addition to continuing the FEMA work, it 
would bring the Coast Guard, Customs Service and Border Patrol 
as distinct entities, in other words, it doesn't take them 
apart, it brings them as distinct entities under the umbrella 
of the homeland security agency. These are folks that are on 
the front lines of protecting our border. They're people who 
could be on the front lines of responding.
    We have to do a lot better in coordinating their efforts, 
not just what they do day to day, although that's important, 
but giving them the resources to be ready to do what they do. 
And if you go down the line of each of those agencies, we're 
not putting the money, we're not recapitalizing, we're not 
giving them the vehicles, the helicopters, the planes, the 
boats, that they need to do the job.
    Finally, my bill would consolidate a number of information 
infrastructure programs into one place. I mentioned the issue 
on China. Clearly, this is an impressive array of charts down 
here. It is also an impressive thing if you look at how many 
agencies are doing little pieces of information infrastructure 
protection. Clearly, we've got to get more coordinated and more 
focused on that. It seems to me to make sense to put that 
together with homeland security from a domestic standpoint.
    Last point, Mr. Chairman, I realize my time is up, but I 
want to address one of Mr. Kucinich's other points. And that 
is, I think civil liberties, actually it goes to Ms. Holmes 
Norton, too, civil liberties and how we trade off these things, 
security versus freedom, is a difficult but essential thing 
that we've got to talk about. One of the benefits, I think, of 
doing the structure that I've outlined, is we're talking about 
civilians, not military. Every year on the floor we have this 
vote on a bill putting troops on the border, giving them guns 
to perform kind of like law enforcement activities on the 
border.
    That's troublesome. It's particularly troublesome in Texas, 
where we had a very unfortunate incident a couple of years ago. 
But it's also that we are taking away from the FBI and some of 
those other law enforcement people, making them less focused. 
FEMA is an agency that has more of a preventive mission, and I 
think that's a better approach.
    If we wait until something bad happens, the country is just 
going to say, come in and save us, whatever it takes, without 
having thought through the consequences. I think it's going to 
be very likely that we'll call upon the military to come in 
then and assume the role of law enforcement, and I think that 
would be a step beyond which we ought to go. Thank you.
    Mr. LaTourette. I thank you all. I thank all of our 
colleagues for their excellent explanation of their legislation 
and also discussion of this national problem.
    Before beginning with questions from the panel, I want to 
ask unanimous consent to enter two letters of support of H.R. 
525, Mr. Gilchrest's legislation, into the record, one being 
from the International Association of Fire Chiefs and the 
second from the Joint Commission on Accreditation of Health 
Care Organizations. Without objection, so ordered.
    Mr. Shays, would you care to ask questions?
    Mr. Shays. Thank you.
    Mr. Skelton, I believe that you have probably thought about 
this issue more than anyone else over the years, but know all 
three of you are very active in your concern about this issue, 
and all of you have spent a great deal of time thinking about 
it. But I wanted to start with you.
    I have, during the course of the hearings we've held, 
become very sympathetic to the concept of actually reorganizing 
rather than coordinating. I'm not looking for you to 
necessarily critique, I'd like a critique of the concept of 
reorganization where you literally have a home office versus 
just telling the President to take charge versus having--I'd 
like you to kind of walk me through what you think the pitfalls 
and the good points are of the three different approaches we're 
seeing, particularly the two between you and Mr. Thornberry.
    Mr. Skelton. This whole issue is somewhat like, it's so 
complicated, and Mac and I, both serving on the Armed Services 
Committee, can both testify to the fact that, Mark Twain once 
said, the more you explain it to me, the more I don't 
understand it. It is truly a complicated issue to get your arms 
around. There are two aspects to it. The first is fighting it. 
It's called anti-terrorism activities. It includes everything 
from forced protection to prevention and detection of attack, 
including intelligence, networks and the like.
    The second is the consequence management after it happens. 
What do you do, what Government entities are designed to 
respond to and to mitigate the damages. You have to keep those 
two aspects in mind. If you fuzz them together, you might very 
well end up with some legislation that finds itself 
contradictory. So we have to keep the anti-terrorism activity 
and the consequent management of it both in mind when we make 
our decisions.
    Frankly, I just want something to work. I introduced the 
legislation that I did so we could get a good handle on it, 
look at the various types of anti-terrorism activities that we 
can do, several types of consequent management that we can do, 
with an overall strategic thought in mind. There is one person, 
as you know, that is responsible to the President to put 
together this strategy, and the President sends it over to us. 
Bottom line is, the buck stops with us right here in the 
Congress to write whatever laws.
    Mr. Shays. What I'm basically hearing, I think, is that you 
believe this is a gigantic problem.
    Mr. Skelton. Oh, it is. It is.
    Mr. Shays. And you believe that we haven't responded to it 
adequately. And so I sense an openness in terms of considering 
alternatives besides the one you mentioned. I'm struck with the 
fact, though, that you want ultimately the President to seize 
this issue, take charge------
    Mr. Skelton. And make recommendations. Ultimately, the buck 
is going to stop with us, eventually, sooner or later. Since 
any administration, this administration or any others will have 
to implement and glue these entities--you know, there are 43 
agencies out there, some $7 billion is going into this effort 
today. And it's not coordinated with an overall strategy at 
all.
    Mr. Shays. Time is running out, but maybe the two of you 
would just respond. It seems to me like we need to wake people 
up. It may be one of the reasons why I like your proposal, Mr. 
Thornberry, which is the one recommended by Senator Rudman and 
his commission. I share the concerns that are expressed here 
about what can we do about the possibility of terrorism coming 
into our domestic experience.
    Everyone of us who represents people has those same 
concerns, and the members who have taken it upon themselves and 
have had the opportunity to work closely with Mr. Skelton, more 
than the other two members, who I respect greatly. But I know 
that Mr. Skelton has a dedication to this country second to 
none. So your articulation of your love for the country and 
your desire to defend it I think is something that everyone in 
your district and my district would applaud.
    So while I think that this discussion is extremely 
important, I would urge that we be very deliberate in our 
approach to coming up with any kind of a solution. Because at 
this moment, we're really looking at some territory that other 
Congresses have looked at, other administrations have had to 
deal with, with varying results. There is a piece here from the 
Air Force Judge Advocate General School, the Air Force Law 
Review, Mr. Chairman, that I'd like to submit for purpose of 
the record, without objection.
    Mr. LaTourette. Without objection.
    Mr. Kucinich. And in this piece by Major Kirk Davies, it's 
entitled The Imposition of Marshal Law in the United States, 
it's a very interesting read. Because one of the things it 
talks about is the tendency in recent years has been for the 
President and the Congress to direct the military into more and 
more operations that are traditionally civilian in nature. But 
then as he goes into his review, he speaks of statutes and 
regulations that cover the military's involvement in civilian 
affairs, and particularly focuses on a discussion of 1878, the 
Posse Comitatus Act, which I know you're all familiar with, 
because that's the act that forbids military personnel from 
executing laws or having any direct involvement in civilian law 
enforcement activities.
    I think the concern of generations of lawmakers has been 
to, while we want a strong military, the military presence in 
the civilian life of the country sends quite a different 
message as to the type of system that we have. And Major Kirk 
points out that when the founders drafted the constitution, 
they weakened the possibility of a military with a dominant 
role in society by subordinating the military to civilian 
control.
    And while we all appreciate greatly the role of the 
military in protecting our liberties and keeping this a strong 
Nation, I think we've had some concerns about how far the 
military would go in terms of serving as a, as some of these 
bills would recommend, in a coordinating role with State and 
local officials.
    I mention this not in any way to denigrate the concerns 
that our members brought to us, but as a cautionary note of 
how, as we get into this idea of a homeland security act, we 
have to be very gentle on the ground that we're walking on. 
Because I'll go back to my initial remarks, concerns about 
basic civil liberties. If we have a cyber tax, for example, we 
know those are going on, and they've been going on, how would 
we devise a regimen for dealing with that without compromising 
computer privacy, for example?
    There are privacy issues.
    Mr. Shays. Would the gentleman yield for a question?
    Mr. Kucinich. Of course I will.
    Mr. Shays. When I've been listening to your questions, 
because you've done it in a previous hearing, I'm left with the 
feeling that somehow you're connecting reorganizing Government 
with threatening civil rights. And I see that as a very valid 
concern whether we reorganize it or not.
    What I view this hearing as is an issue of our failure to 
have, the fragmented reform of Government doesn't allow us to 
respond to the real threat of terrorism that I don't see in any 
way would move forward or backward the issue of civil rights.
    Mr. Kucinich. I would respectfully submit to my good 
friend, Mr. Shays, who I am honored to be on this committee 
with, that there are civil rights issues that are central to 
this discussion. As a matter of fact, if you read one of the 
proposals here, it may have been Mr. Skelton, he specifically 
mentions that he would want, this is in section 3, article 4, 
that providing for the selective use of personnel and assets of 
the armed forces, circumstances in which those personnel and 
assets would provide unique capability and could be used 
without infringing on the civil liberties of the people of the 
United States.
    So there is a recognition that civil liberties could be at 
issue here. I'm saying with all due respect that, speaking as 
one member here, you've raised the issue, Mr. Shays, about 
reorganization. It's a valid concern. And I'm raising the issue 
as one member about civil liberties. And I will stand on that 
point and will not be moved from it until I can see some 
assurances that's going to be dealt with.
    Mr. Skelton. Could I comment on that?
    Mr. Kucinich. Of course, if we have the time, Mr. Chairman.
    Mr. LaTourette. Sure.
    Mr. Skelton. That's why it's there. That's why that 
language is there. This country lawyer feels very strongly that 
in the anti-terrorism activity and the consequent management of 
that is helping, should a disaster come to pass, that's 
separate and distinct from a fair trial, all the rights that go 
into protecting anyone that might be accused of any type of 
crime. So that's why that language is there, to recognize the 
fact that there is a limitation to what the military can do, 
and the other agencies can do, without trampling on individual 
human rights.
    That's very basic, as far as I'm concerned, Mr. Kucinich.
    Mr. Kucinich. Well, I'm glad to hear Mr. Skelton say that. 
Because I think it's important as we move through this 
legislative proposal that there be specific language that would 
make sure that civil rights are not abrogated in any way. When 
you're talking about, in this one bill, about the designation 
of responsible official, there's also an issue as to whether or 
not, if the President designates a single official, on this 
issue of homeland security, in the context of the military 
involvement, how does that compromise his role as commander in 
chief?
    These are questions that I think are legitimate and with no 
disrespect to the sponsors at all, with all due respect to the 
sponsors. But again, you know, I think the just have to be 
raised. I'm very interested in how we can make this country 
more protected against domestic terrorism. I'm interested in 
how can we do that and protect civil rights. I think if we can 
do both, it's a great idea.
    Mr. Gilchrest. Mr. Chairman, if I could just make a very 
brief comment to Mr. Kucinich's concerns. It's important for us 
to use all the intelligence at our disposal, all our resources, 
to protect American citizens from terrorism and disasters. In 
line with certainly our constitutional rights and protecting 
everybody's civil liberties, I think we have the potential and 
the ability to do that.
    I share your concern, interestingly enough. In the late 
1960's, I came to Washington with a group of Marines during the 
anti-war demonstrations. And we used to stand there protecting 
the Pentagon or protecting the Capitol, protecting some other 
place, while very often young women would come up and put 
flowers in the barrel of our M-14s. But I also came here in 
1968, after Martin Luther King, Jr. was assassinated, to 
protect the Capitol. And we walked the streets of this fair 
city, as Federal troops, armed with rifles, hand grenades, gas, 
machine guns, helmets, flak jackets, protecting the Nation's 
Capital.
    And we were carefully instructed and carefully trained to 
work with the local police. But there was always that sense 
that there was an intimidating factor by Federal troops that 
could cross the line of civil liberties. In my district, we 
have Bloodsworth Island, where the Navy comes in, and has been 
for a long time, they bomb the island. That's where people fish 
and canoe and things like that. So the Federal presence has to 
be carefully balanced.
    I think the legislation, the last comment Mr. Thornberry 
said is, if we're well prepared and well trained, then we won't 
cross the line. If we're not well prepared and well trained or 
fragmented, that's when problems arise.
    Mr. Kucinich. Could I ask one final question?
    Mr. LaTourette. All right, Mr. Kucinich.
    Mr. Kucinich. And that is, do you see then the homeland 
security act, any of you, taking place within the context of a 
declaration of marshal law or apart from it?
    Mr. Gilchrest. I would say in most circumstances, I don't 
see it enhancing or contributing to the increased use of 
marshal law. I certainly know that in certain circumstances, in 
the 1960's across the country, whether it was Newark, New 
Jersey or Detroit or Washington, DC, that was put in place in a 
limited way to protect citizens.
    Mr. LaTourette. I thank you, Mr. Kucinich. I was going to 
make the observation that you did before, I thought Mr. 
Thornberry hit the nail on the head, that it's important that 
not only this committee but the Congress and the entire Federal 
Government work on this activity. Because after something 
happens, the likelihood of having a result or a measure that 
people will be screaming for because of the emergency may not 
protect some of the things that I think you're talking about, 
Mr. Kucinich.
    Mr. Gilman, do you have questions you would like to ask?
    Mr. Gilman. Thank you, Mr. Chairman. I'll be brief.
    Let me ask our three panelists, who made some excellent 
suggestions, what mechanism does each of you in your bill 
utilize to impel coordination and coherence among the many 
agencies that are out there in fighting domestic terrorism? And 
does each of you have in your bill budgetary discipline as a 
role in forcing compliance?
    Mr. Skelton. My bill is preliminary to that. The President 
would be in charge and dictate to the various directors, 
secretaries, after a review was made as to their suggested 
role, but he would bring it to us for us to implement or to 
change or to make better. My bill has nothing to do regarding 
the budgetary process. My bill costs nothing except the 
salaries of some folks that are trying to put together a 
strategy that the President would recommend to us.
    Mr. Gilman. Mr. Thornberry.
    Mr. Thornberry. My bill creates a homeland security agency 
that would have budgetary authority over the entities that I 
mentioned. It would also be the single point of contact for the 
other agencies that may be involved, depending on what kind of 
threat or what kind of incident we're talking about.
    And it would create one single individual accountable to 
the President who's responsible for homeland security. And I 
think that gets back to what Mr. Shays was asking about 
earlier, the benefits of reorganization versus coordination. I 
really think that's the shades of difference between Mr. 
Gilchrest's bill and mine.
    I was struck by the testimony that you all had before in 
your subcommittee, the CSIS guy who says you've got to have 
three things, authority, accountability and resources. If you 
just deal with a coordination, you have to struggle and reach 
to figure out how you're going to get the control over the 
money in this coordinating agency, go through OMB back and 
forth. I think we've got to be more direct than that. So that's 
the approach that my bill takes for those agencies.
    Mr. Gilman. Mr. Gilchrest.
    Mr. Gilchrest. What we do is set up a council in the 
executive branch directly beneath the President. This council, 
at the direction of the President, will then bring in the 
various myriad of agencies to look at what everybody does. And 
I would guess, I would not want to use the word reorganization, 
but to enhance the activities and the coordination of those 
agencies to be much more effective.
    Thereby, instead of the fragmented agencies not working 
together, we use the existing structure to create coordination 
so they do work together, and thereby saving the taxpayers a 
lot of dollars by coordinating the budget.
    Mr. Gilchrest. I want to thank our three colleagues for 
giving a great deal of thought to this. I think it's incumbent 
upon all of us in these joint committees, members of the joint 
committees who are here today, to undertake a thorough, 
comprehensive review to make a more effective program with 
regard to anti-terrorism. Thank you, gentlemen.
    Mr. LaTourette. Thank you, Mr. Gilchrest. Thank you, Mr. 
Gilman.
    Mr. Putnam, questions?
    Mr. Putnam. Thank you, Mr. Chairman.
    Based on the previous hearings that our subcommittee has 
had, and the discussions that we've had so far today, we're all 
having this difficult time getting our arms around the implicit 
nature of crime versus terrorism and what is what. I just 
wanted to pose a question, as the new kid on the block.
    If an 18 year old in a high school in my district and a 25 
year old radical anti-globalization protestor and an operative 
in the Bin Laden operation are all simultaneously working to 
crash the New York Stock Exchange, which one is the terrorist, 
and how do we respond? Do we define terrorism based on the act, 
based on the perpetrator, based on the geographic location from 
where they levy their operations? Which of those individuals is 
the terrorist?
    Mr. Skelton. Both of them are in violation of the criminal 
law of the United States, we know that. Both of them would be 
subject to criminal sanctions of the United States. But that 
very question that you pose is the very question that the 
President and his study would have to make recommendations to 
us. True, it's a fine line. But one of them has a tail to it, 
Bin Laden, and the other is a straight out and out criminal 
activity.
    But that's the purpose of our study, that this bill would 
call for. These are difficult questions. They're not cut and 
dry. That's why we have to do the first thing first, establish 
what the strategy is going to be, and then start fitting, as a 
result of the recommendations from the President, start fitting 
the pieces together. We're going to get there. This Congress 
has to do something. But the first step should be the right 
step in establishing the overall strategy along with the help 
of the President.
    Mr. Thornberry. Mr. Putnam, I would agree. I think the 
situation you pose is the kind of thing we're going to be 
facing. It's not going to fit in a nice, neat little box that 
we can put a label on and make us feel better and say, yes, 
this is your problem, it's not our problem. That's one of the 
reasons that we've got to do something about all of these 
charts that you see up here. There's got to be a single focal 
point for the U.S. Government for dealing with homeland 
security issues, even if you don't have all of the agencies 
involved under his jurisdiction, there has to be one focal 
point accountable to the President to deal with these things.
    I think that is a very likely scenario, some outside entity 
wants to smuggle something in to some Timothy McVeigh type to 
do something horrible. That's one reason we have to do better 
in getting control of our borders, we have to have more focus 
in trying to prevent these things and deal with the 
consequences of them. And then the law enforcement, you know, 
finding them and prosecuting them later, is a separate thing.
    But I don't think you can divide very easily the terrorism 
versus the consequence or the domestic versus the foreign. I 
think it is all very fuzzy.
    Mr. Gilchrest. I think we have to have the ability to 
determine whether or not that single 18 year old acted alone to 
cause the stock market to crash versus, which is a crime, plus 
a terrorist activity, because it affects tens of thousands if 
not millions of people. So if it affects large groups of 
people, not having a law enforcement background, not being an 
attorney, I would as a layman say it's a terrorist act.
    But we need the skill to find out if there's anybody else 
involved in that, such as a Bin Laden. I think each of these 
bills makes that attempt.
    Mr. Skelton. Mr. Putnam, if I may add, the recent 
kidnapping and murder of a man, from my district, Sunrise 
Beach, MO, down to Ecuador, posed that same question, were 
these mere criminals or were they terrorists. It made a great 
deal of difference as to the response from our country as to 
whether we could engage them as terrorists.
    Well, as you know, ransom was paid and the rest of those 
who were kidnapped were returned, of course, with the very sad 
murder of the very first one.
    Mr. Putnam. Let me follow up, Mr. Skelton, if I may, with 
your proposal. Should the design of your consequence management 
strategy be apart and different from the design of the anti-
terrorist strategy?
    Mr. Skelton. Well, it has to be. The left hand has to know 
what the right hand is doing. But one, you're trying to stop it 
before it happens. And the other is, doing something after it 
happened, all the way from helping people who are injured to 
catching the culprits.
    Mr. Putnam. This hearing sort of illustrates the problems 
that Congress is having. We have a transportation and 
infrastructure and a government reform, obviously a lot of 
expertise from armed services is required. Now we're beginning 
to review the fact that agriculture needs to be a part of this, 
and domestic law enforcement. What does Congress need to do, 
institutionally, to better deal with these issues?
    Mr. Thornberry. Let me just mention that the Commission on 
National Security in the 21st Century has a whole chapter on 
us, about how we're part of the problem and we've got to get 
our own house in order. And they have some specific 
recommendations in there about how we need to rearrange 
ourselves.
    But I think that it's a very real problem, if we allow 
jurisdictional concerns and protectiveness to prevent something 
from happening, I think that will not be something that we'll 
be proud of in the days ahead.
    Mr. Gilchrest. I'll just make a quick comment, because 
cyberspace has been mentioned here, agriculture has been 
mentioned here, U.S. ports have been mentioned here today, 
along with a myriad of other things. What we attempt to do in 
our bill is to have the President bring all of those Federal 
entities together and develop a very specific coordinating 
policy, planning, training activity that can go from the 
Justice Department, the FBI, to Customs, to the Department of 
Agriculture, down to all the medical, police and first 
responders on the local level, to get all of this not only 
coordinated, but to get the big picture.
    Mr. Putnam. Thank you, Mr. Chairman, and I thank the panel.
    Mr. LaTourette. Thank you, Mr. Putnam.
    Mr. Platts, do you have any questions you'd like to ask?
    Mr. Platts. No, thank you.
    Mr. Skelton. May I add something to that?
    Mr. LaTourette. Certainly.
    Mr. Skelton. The thing that worries me most is, we do 
nothing. Another tragedy comes to pass, and then we rush to 
judgment with legislation that might not work on the one hand, 
or be a great violation of our American civil rights, which 
consequently would be struck down by the Supreme Court, and the 
end result is we have done nothing. That's why you need a step 
by step study, strategy, to give direction both to the anti-
terrorism activities and to the consequent management of this.
    It has to be thought out methodically and hopefully we can 
do it before another tragedy comes to pass and we rush to 
judgment and pass something that's not very good. That concerns 
me.
    Mr. LaTourette. Thank you very much. And we thank all of 
you.
    Mr. Gilchrest, if I could, before we let you go, ask you 
one question. In looking at your legislation, I think Mr. 
Thornberry mentioned the three elements of legislation or a 
proposal that we'd like to have, accountability, authority and 
resources. The question is, clearly in yours, with this 
council, I think it's a good idea that it raises the profile by 
putting it within the administration. There's accountability in 
that there is someone that can be responsible, the buck stops 
here, I think Mr. Skelton indicated. And resources have not 
been a problem, the figures go between $7 billion and $11 
billion.
    Do you see, however, that there is the authority in this 
council to enforce or cause the reorganization that may need to 
occur and end some of the turf battles that now plague a 
coordinated effort as we respond to domestic terrorism?
    Mr. Gilchrest. I think turf battles in any bureaucracy is 
difficult to the degree of the makeup of the person in charge. 
If you have a strong person, I don't think the difficulty in 
turf battles will be much of an issue. Thereby, putting this in 
the Office of the President, it's not going to be under FEMA, 
it's not going to be under the Treasury Department, it's not 
going to be under anybody else but the leader of the free 
world, which is the President.
    If you do that, I think turf battles will fade away like 
the morning fog--over wetlands. [Laughter.]
    Mr. LaTourette. Good analogy, and a good place to end. I 
want to thank you all very much for not only your legislation, 
but your patience with the committee, and your excellent 
testimony. Thank you very much.
    We will now welcome before the joint hearing the second 
panel of witnesses. We have with us today Mr. Raymond Decker, 
who is the Director for Diffuse Threat Issues for the Defense 
Capabilities and Management Team of the General Accounting 
Office, and Mr. William Ellis of the Congressional Research 
Service. We thank you gentlemen for being here.
    And Mr. Shays, you have a unanimous consent request?
    Mr. Shays. Mr. Chairman, thank you. I ask unanimous consent 
to insert into the hearing record a series of charts depicting 
the current organizational structure of the Federal Government 
dealing with domestic and international terrorism that are 
around the room.
    Further, I ask unanimous consent to insert into the hearing 
record the following prepared statements from the Embassy of 
Israel concerning terrorist threats to Israel and how the 
Israeli Government is organized to respond to such threats, the 
British Embassy, concerning the terrorist threats to the United 
Kingdom and the government's organization and coordination 
effort to counter the threat. And from the Embassy of Japan 
concerning the terrorist threat to Japan and measures taken by 
Japan to prevent terrorism. And finally, from the Office of 
Management and Budget. I'd ask unanimous consent.
    Mr. LaTourette. Without objection, so ordered.
    I'm also advised that we have Steve Caldwell, who is 
accompanying Mr. Decker today, but won't be speaking or 
answering questions, which is OK.
    Mr. Decker, we'd invite you to begin.

STATEMENT OF RAYMOND J. DECKER, DIRECTOR, DEFENSE CAPABILITIES 
     AND MANAGEMENT TEAM, U.S. GENERAL ACCOUNTING OFFICE, 
       ACCOMPANIED BY STEVE CALDWELL, ASSISTANT DIRECTOR

    Mr. Decker. Chairman LaTourette, Chairman Shays, 
Representatives Gilchrest, Thornberry and Skelton, and members 
of the subcommittees. We're pleased to be here this afternoon 
to discuss three bills, H.R. 525, H.R. 1158 and H.R. 1292, 
which provide proposals to change the overall leadership and 
management of programs to combat terrorism.
    As you indicated, sir, Mr. Steve Caldwell is here to 
assist. He has managed much of our recent work in this area.
    Given that our Government is spending approximately $11 
billion this fiscal year to combat terrorism, and that over 40 
Federal agencies are involved, as indicated by all those place 
tags on the table there, we view this hearing as a very 
positive step in the ongoing debate concerning the overall 
leadership and management of this complex and cross-cutting 
issue.
    Our testimony is based on our extensive evaluations of 
Federal programs to combat terrorism, many of them done for 
your subcommittees. Our experience is in evaluating programs to 
combat terrorism and not the broader topic of homeland 
security, which includes terrorism and additional threats such 
as cyber attacks on our critical infrastructure. The scope of 
both H.R. 1158 and H.R. 1292 focuses on homeland security 
issues, while H.R. 525 addresses domestic terrorism and 
preparedness at the Federal, State and local levels.
    Mr. Chairman, in an attempt to direct our comments at the 
two primary thrusts of this hearing, namely, how each bill 
might produce a more effective and efficient organization in 
the Federal Government to counter terrorism, and which 
provisions of each bill could be used to enhance the others, we 
believe it would be beneficial to provide our observations on 
five key actions we deem necessary for any effective Federal 
effort to combat terrorism.
    First, a single high level Federal focal point must be 
established to lead and manage the national efforts in this 
area. Each bill, as outlined by the three representatives, the 
sponsors of the bills, addresses the issue of who's in charge. 
H.R. 525 proposes a council with an executive chairman within 
the Executive Office of the President. H.R. 1158 places a 
Cabinet level official in charge of a new proposed National 
Homeland Security Agency. And H.R. 1292 calls for a single 
official designated by the President for homeland security.
    Second, a comprehensive threat and risk assessment is 
essential to underpin a national strategy and guide resource 
investments. Both H.R. 525 and 1292 require some form of threat 
and risk assessment. H.R. 1158 stresses the need for effective 
intelligence sharing to identify potential threats and risks 
against the United States.
    Third, a national strategy to combat terrorism with a 
defined end state must integrate plans, goals, objectives, 
roles and actions for an effective overall effort. All three 
bills propose positive solutions in this area, which generally 
follow the chief tenets of the Government Performance and 
Results Act of 1993.
    Fourth, an effective management mechanism must exist to 
analyze and prioritize Government-wide programs and budgets to 
identify gaps and reduce duplication of effort. Again, all 
three bills propose varied measures to effectively oversee 
program activities and budget requirements.
    Finally, the coordination of all Federal level activities 
to combat terrorism must be efficient and seamless. All bills 
stress the need for enhanced interagency coordination and 
establish mechanisms to achieve this goal.
    In closing, as we have observed today, there is no 
consensus in Congress, in the executive branch, in the various 
panels and commissions which you will hear after we speak, or 
the organizations representing first responders on the ideal 
solution to this complex issue. However, to the extent that 
these three bills or some hybrid of them address the five key 
actions we have identified above, we are confident that the 
Federal effort to combat terrorism will be improved.
    Sir, this concludes my testimony, and Mr. Caldwell and I 
will be happy to answer any questions the subcommittees may 
have.
    Mr. LaTourette. Thank you, Mr. Decker.
    Mr. Ellis.

 STATEMENT OF WILLIAM W. ELLIS, SENIOR SPECIALIST IN AMERICAN 
 NATIONAL GOVERNMENT AND PUBLIC ADMINISTRATION, CONGRESSIONAL 
                        RESEARCH SERVICE

    Mr. Ellis. Good afternoon, chairmen and members. I'm Bill 
Ellis of the Congressional Research Service.
    The governmental structures and procedures for combating 
terrorism have been a concern for the Congress for a number of 
years, and the enactment of any of these three bills would 
represent a new departure in this area. However, the proposals 
move forward in different ways. H.R. 1292 would require little 
or no change; H.R. 525 would add a coordinating group to 
existing structures; and H.R. 1158 would create a whole new 
Government agency.
    As is the case with the others, I've been asked to take two 
tacks at this. But at the outset, let me just note that 
congressional guidelines on objectivity and non-partisanship 
for my agency, the Congressional Research Service, require me 
to confine my testimony to technical, professional and non-
advocative aspects of the matters under consideration.
    First, how might these bills make our Government more 
effective and efficient at combating terrorism? We've been 
through the details of these acts, so I won't rehearse those. 
But let me just say briefly that H.R. 525, the Preparedness 
Against Domestic Terrorism Act of 2001, would create a 
President's council on domestic terrorism preparedness, and 
it's a mechanism to coordinating existing Federal agencies in 
the development and implementation of Federal policy to combat 
terrorism. In providing a specific mechanism, this bill might 
increase the coherence of now fragmented national policy and 
reduce interagency duplication.
    H.R. 1158, the National Homeland Security Agency Act, would 
also probably increase national policy coherence and reduce 
program overlaps. Its approach is to combine many units from 
Federal agencies rather than to work within the existing agency 
framework.
    H.R. 1292, the Homeland Securities Strategy Act of 2001, 
would require the President to systematically coordinate the 
development and implementation of national policy to combat 
terrorism, using the existing organizational arrangements. The 
cost of this measure would be minimal, as has been pointed out, 
and if vigorously implemented, it might also be effective, 
especially if it is conceived of as a prelude to any major 
change.
    The extent to which of these options would provide for 
better coordination depends a great deal on its implementation. 
While Congress will undoubtedly consider the costs and benefits 
of each of these proposals, issues of implementation should be 
taken into consideration in doing this. And of course, it's 
important, if you're going to do an analysis of the benefits 
and costs of any prospective action, that you understand 
clearly and have a clear statement of what the objectives are.
    Turning to the second area, which specific provisions of 
each bill could be used to enhance the others, I make seven 
points. One, some have suggested that the kind of threat 
assessment required for systematic policy development is 
lacking in our deliberations. Both H.R. 525 and H.R. 1192 
specifically address this, while H.R. 1158 does not. Perhaps it 
might.
    Two, all three bills require the development of a national 
policy to combat terrorism and an implementation plan for it. 
H.R. 1292 requires the President to develop a multi-year 
implementation plan and the other bills may benefit from the 
addition of this longer time dimension.
    Three, H.R. 525 has specific requirements to guide the 
making of Federal grants to the States. The other bills might 
benefit from more specific language in this area.
    Four, in the area of Federal to State liaison, H.R. 525 
specifies the creation of a State and local advisory board. 
Something on this order might be considered for the other 
bills.
    Five, in the area of standards for equipment, training and 
other aspects of domestic preparedness, H.R. 525 and H.R. 1158 
have them, while H.R. 1292 does not. The addition of language 
on standards and guidelines might be appropriate.
    Six, all three bills have requirements for the centralized 
development of the budget to combat terrorism. The requirements 
of H.R. 525 and H.R. 1292 are more explicit than those of H.R. 
1158. Perhaps there might be more said about that in that 
measure.
    Seven, and finally, all of the bills require reports to 
Congress. But there are differences. There might be some 
benefit to comparing these requirements to determine the best 
configuration for Congress.
    That concludes my testimony. Thank you for your attention. 
Of course, I'll answer questions.
    Mr. LaTourette. Thank you very much, Mr. Ellis.
    Mr. Decker, and Mr. Caldwell, if that's appropriate, in 
your observations and your testimonies, you indicated that 
there should be five things that you would be looking for in 
any piece of legislation or reorganization that the Government 
should undertake. You went through those in great detail, and I 
began making a schematic, looking for--there's a new show on 
called the Weakest Link--I was looking for the weakest link of 
the three pieces of legislation we discussed today.
    But in response to each of the five observations or items 
that you wanted to see, all three, you said, contained the five 
components that you were looking at.
    When Mr. Ellis was talking, he sort of went through and 
indicated that maybe H.R. 525 was good in terms of outlining 
how grants are going to go to the States, and perhaps some 
standards and guidelines discussions.
    Would it be your recommendation to not only the two 
subcommittees here today, but to the Congress, that all three 
of these bills, we should just pass them and we're done, or are 
there things that you think are missing from the three pieces 
of legislation that we're considering today that you think, or 
Mr. Caldwell thinks, or Mr. Ellis thinks, would help us do this 
better?
    Mr. Decker. Mr. Chairman, that's a very difficult question. 
It's much like going to the grocery store which has apples, 
oranges, and bananas, and being asked to pick which one is the 
best fruit. Clearly, the scope of the three bills vary, and I 
think Dr. Ellis addressed that as well as we did in our 
testimony and in our prepared statement. Mr. Skelton's bill 
looks at a strategy, a homeland security strategy, whereas Mr. 
Gilchrest's bill looks at an amendment to the Stafford Act to 
improve domestic preparedness at the State and local level, 
primarily. And the bill from Mr. Thornberry looks at the 
establishment of a new agency to deal with other issues besides 
terrorism.
    I can only go back to our foundation, and that is, 
regardless of what mechanism, what organization, what model is 
used, there has to be key elements to promote the effectiveness 
of the model. The key elements deal with leadership, with 
strategy, with implementation, with interagency coordination, 
and with some ability to link the effectiveness with some type 
of results.
    Mr. LaTourette. And I understood that from your testimony. 
I guess my question is, are there specific things, as you have 
reviewed these three pieces of legislation, specific 
suggestions that you would want to share with the subcommittees 
that would improve any of the three? I don't think any of the 
authors would take umbrage by it. I think they want to have the 
best possible product possible.
    Are there specific suggestions that you would choose to 
offer or can offer that might improve what's before us now?
    Mr. Decker. Sir, I think if we look at each of the five, I 
would just simply make a comment or two about each. On the 
leadership, I think each of the proposals outlined someone in 
charge. I think a key aspect is accountability. And 
accountability to me would mean, with the advice and consent of 
Congress, the individual would work on, in the executive 
branch, toward these measures. There would be visibility and 
accountability.
    The national strategy is another important aspect. I think 
a key to any program has to have a framework that pulls in all 
the key components for an effective effort. As mentioned by 
Representative Skelton, the threat and risk assessment is 
critical. Without that, you cannot really structure a good 
national strategy to implement.
    Each of the proposals did talk about a threat and risk 
assessment. As I mentioned, it was H.R. 1158 that did not 
clearly stipulate or require threat and risk assessment. We 
think that's critical.
    It gets a little bit more fuzzy when you talk about 
interagency coordination mechanisms. That probably is one of 
the hardest aspects of the Federal effort--tying together and 
linking the efforts of 43 agencies that are dealing with this 
at the Federal level. And can you imagine the interagency 
coordination, if it were intra, intergovernmental coordination 
as you get into the States and local.
    So I would only suggest that the language in any proposal 
has to have more specificity in those five areas that we just 
outlined.
    Mr. LaTourette. Mr. Ellis, your observations were not only 
diplomatic, but I thought they were also very helpful in terms 
of where you would choose to make adjustments. Are there others 
that you didn't mention that you would like to add now, or was 
that list pretty exhaustive?
    Mr. Ellis. Thank you for your kind words, sir. I would just 
make these comments. The constitution of the United States of 
America is one of the most astonishing documents that has ever 
been created by the human mind. I'm sure we can all agree on 
that, and celebrate it. One of the things that virtually 
everyone has agreed upon here is that there are some serious 
constitutional issues in this. On the one hand, there is the 
need to protect the realm. And on the other hand, there is the 
need to protect the liberties. And I would think it would be 
very useful if the Congress could directly engage that issue as 
it does these deliberations on this important measure.
    On the issue of threat assessment, of course, the logic of 
the thing is that you must have a threat assessment that is 
adequate if you are going to press forward with legislating in 
this vein. However, with the new kinds of threats that have 
been developed, in terms of potential information warfare, in 
terms of the chemical and biological threats and the scientific 
aspects of those things, these are new things that are really 
very difficult to dimension in terms of any real threat 
assessment. I would suggest that issue might be engaged as you 
engage the issue of determining what the threat is that is 
going to drive this whole thing.
    I would also, sir, suggest, in all humility, and certainly 
it is not my role to tell the Congress what to do, but I would 
just point out that in a number of these reports it has been 
suggested that congressional organization is part of the kind 
of thing that we must deal with in considering reorganization 
of the Federal Executive. And I would hope that the Congress 
would address that issue as well.
    Mr. LaTourette. Good. I thank you very much.
    Chairman Shays.
    Mr. Shays. Thank you. It is wonderful to have GAO here, and 
it is wonderful to have you here, Dr. Ellis, as well. We 
usually do not invite CRS to come in to testify but we usually 
get them into our office so that we get all the good background 
before we go out to the public. So, wonderful to give you a 
little public exposure for your very good work.
    I bring two basic assumptions to the table. One, there will 
be a terrorist attack, be it chemical, biological, or nuclear, 
less likely nuclear, somewhere in the United States in the not 
too distant future and it will be a pretty alarming event. I 
take that and that there may be more than one. I just make that 
assumption because I believe it with all my heart and soul. I 
also believe that we are totally and completely disorganized in 
how we respond to it.
    I am wrestling with my kind of--and I am not wrestling with 
what Mr. Kucinich is right at this moment, because I see 
nothing at all in this legislation that changes the status quo 
on civil liberties; nothing at all. But I do know that, 
obviously, there is always the danger, whether we have the 
status quo now or reorganize. But I wrestle with the three 
levels: One is, to say to the President set us a strategy and 
let us see what you recommend, to one where we basically have 
an office within the White House, to one in which we actually 
have a cabinet position. And I am wrestling with this in terms 
of the so-called ``HomeLand'' office. That is, I see the things 
that go in it and then I realize there are so many things that 
are not in it that probably would need to go in it in order to 
be truly comprehensive, and then I am wondering if I am getting 
into the problem that we did with the Energy Department when we 
decided what to put in and what not to put in.
    So this hearing is not answering my questions. It is just 
raising more questions, which is somewhat typical. But having 
said that, what would I likely add to the Home Office that was 
not there if I wanted to be more comprehensive? I mean, 
basically we have FEMA in there, we have the Customs Service, 
we have the Border Patrol, we have the Coast Guard, and 
critical infrastructure offices of Commerce, and we have FBI, 
parts of FBI. Should INS be part of it? Let me put it this 
way--I am doing a lot of talking here and not listening to the 
answer--what are the ones that you could go back and forth on 
and have a wonderful argument and never come to a conclusion?
    Mr. Ellis. Sir, it is very difficult to reckon that one. 
You have to go just issue by issue. It is an agency by agency--
----
    Mr. Shays. Does that problem exist? Am I seeing something 
that I should not be seeing? Or is there an issue of where you 
draw the line?
    Mr. Ellis. Oh, yes, sir. No, I think there definitely is a 
question, if you are going to take that kind of reorganization 
option and begin creating a new agency, there is definitely an 
issue of what should go in there and what should not. For 
example, and this is not taking a position at all, it is quite 
remarkable that when you look at these agencies that are placed 
into the new agency there is not anything that represents 
biological science. And what has been said by a number of these 
reports is that bioterrorism is really the most significant, or 
a most significant aspect of what it is that we face. Now 
whether that means taking the Centers for Disease Control and 
the Veterans Administration and whatever else components and 
putting them in there or not, certainly there ought to be, if 
you take that option, some kind of representation of biological 
science.
    Mr. Shays. So, you have given me one example of something 
you would wrestle with.
    Mr. Ellis. Yes, sir. And that is just an example.
    Mr. Shays. And would you be able to give me an example of 
something that should have been there if you were going to 
really------
    Mr. Decker. Mr. Chairman, my sense is that the homeland 
security proposals encompass a lot more capabilities than just 
to combat terrorism. These proposals deal with other emerging 
threats. And that is where we have some difficulty evaluating 
them. Our foundation has been built on evaluating Federal 
efforts to combat terrorism and we have not looked at 
reorganizations of the Government in a way to combat terrorism 
except to ensure that there are certain key fundamental 
elements existing in any structure.
    Mr. Shays. OK. Let me ask you this. If we do not go that 
route, how do we deal with the very real issue that you want 
responsibility, accountability, and resources? I mean, I do buy 
into the fact that those are three very powerful forces that 
you would want. So, is it possible to have coordination and 
have the responsibility, accountability, and resources?
    Mr. Ellis. Mr. Chairman, I believe it is. When 
Representative Thornberry talked about authority, 
accountability, and resources he talked about the authority, 
the leadership, the assignment of that individual, that entity 
or body, the focal point; the accountability to not just the 
executive branch, the President, but also to Congress; and 
resources. And resources, the point that I did omit would be 
some type of budget certification. As was mentioned earlier, if 
you do not control some type of budget or some type of 
resources, you are really without much leverage. If those three 
pieces are given to whatever entity that is in charge, I think 
you would have a more effective mechanism than we have today.
    Mr. Shays. I am just wondering how you give resources to a 
coordinating organization that actually has sway over the 
organizations it is trying to coordinate. But, sadly, I have to 
leave this hearing, Mr. Chairman, and I am sorry. But I 
appreciate you all being here.
    Mr. LaTourette. Thank you very much, Mr. Shays.
    Mr. Kucinich.
    Mr. Kucinich. Thank you, Mr. Chairman.
    For any of the witnesses, rather than focusing on the 
number of agencies with a role in counterterrorism, some 
critics have focused on the lack of coordination among them. 
They point out there is no single individual with authority to 
direct budget decisions across all Federal agencies. Would any 
bill grant a single individual budgetary authority over other 
agencies engaged in counterterrorism? And would this authority 
be exercised through recommendations or direction? And would 
secretaries of other departments, such as DOD or State, be 
required to abide by this person's requirements? Anyone?
    Mr. Ellis. Mr. Kucinich, I would only suggest that perhaps 
the wisest approach would be with the budget certification or 
recommendation. I think it would be very difficult for one 
entity, let's say within the Executive Office of the President, 
to have almost veto power or supreme authority over budget 
issues that involve the other departments.
    Mr. Decker. To me, the coordinating power for the Federal 
budget is lodged in the presidency. And that is as it should 
be.
    Mr. Kucinich. So, gentlemen, based on your understanding of 
the proposals, how would the bills generally handle 
intelligence-gathering in domestic settings?
    Mr. Decker. Sir, I think there are some very well 
established guidelines with respect to domestic intelligence 
collection. The intelligence community--that is, the CIA, the 
Defense Intelligence Agency, National Security Agency, and 
others--are prohibited from collecting domestic intelligence; 
that is, intelligence involving U.S. persons. This is outlined 
in Executive Order 12333. On issues that involve domestic 
terrorism, obviously it gets into the law enforcement area and 
the FBI has the jurisdiction on collecting information that may 
lead to prosecution of a criminal act such as terrorism.
    Mr. Kucinich. So you do not see any implications of this 
legislation running into Executive Order 12333?
    Mr. Decker. Sir, my understanding, based upon our review of 
the legislation, there are no indications from the language 
that the intelligence apparatus of the United States would be 
directed at its citizens.
    Mr. Kucinich. Is that precluded from this legislation, in 
your understanding?
    Mr. Decker. Yes sir. I think there are very strict 
guidelines and it has been in effect for over 20 years as a 
result of hearings in Congress based on the abuses of 
collecting on U.S. persons during the Vietnam War and during 
the civil rights period of the 1960's and 1970's.
    Mr. Kucinich. And since some of the legislation speaks in 
terms of prevention, how would principles governing 
intelligence-gathering against U.S. citizens be affected by 
each of the proposals?
    Mr. Ellis. That is one of the things, sir, that I think 
needs to be made much more specific.
    Mr. Kucinich. Could you elaborate?
    Mr. Ellis. Well, I would just suggest that in each of the 
proposals, as I read them, the statements about intelligence 
gathering vis a vis U.S. citizens are not as specific as they 
could be as the Congress engages these important constitutional 
issues that are raised by legislating in this area. So I would 
not say, sir, that either one of them is better than the other. 
I think there is something of a gap there that is manifest in 
all of them.
    Mr. Kucinich. Thank you. Do any of the bills that require a 
comprehensive assessment include within that assessment the 
impact of U.S. Government actions on the likelihood of those 
threats?
    Mr. Ellis. I am sorry. Can you repeat your question, sir?
    Mr. Kucinich. The bills which would require a comprehensive 
assessment, within that assessment is there anything about the 
impact of U.S. Government actions--you know, creating the 
threats or------
    Mr. Ellis. Sir, the specificity in the bills is not there 
with respect to the division perhaps between domestic and 
international threats. But, clearly, if current policies are 
followed, the FBI would have jurisdiction over evaluating and 
providing against the domestic threat, in concert with State 
and local inputs, and the intelligence community, the CIA, DIA, 
and others, would have responsibility for the international 
aspect. And those two components would comprise the threat 
assessment piece for the United States.
    Mr. Kucinich. Just one final quick question, Mr. Chairman. 
And I thank you for your indulgence.
    In the hearing that we had a few weeks ago in our 
subcommittee, we had a number of witnesses come up and explain 
to us about how the United States is perceived in other 
countries. And in connection with that, I wonder if any of the 
bills would require an assessment of actions of U.S. 
corporations operating abroad and the effect of those actions 
on the likelihood of a threat?
    Mr. Ellis. There is nothing specific in the legislation at 
this time, as I read these bills.
    Mr. Kucinich. Because certainly threats do not exist in a 
vacuum. I am just offering that for your consideration. They do 
not exist in a vacuum. So, is this an area that maybe the 
legislation ought to consider?
    Mr. Ellis. That is up to the committee, sir. Of course, it 
is one of the things that legislation may very well consider.
    Mr. Kucinich. Thank you.
    Mr. LaTourette. Thank you, Mr. Kucinich.
    Mr. Gilman.
    Mr. Gilman. Thank you, Mr. Chairman. I want to thank our 
witnesses for their excellent analysis of these measures before 
us.
    Let me ask, is there any way to reorganize our 
antiterrorism efforts at home to avoid the creation of a new 
and large bureaucracy and the significant organizational 
disruption that could occur in properly responding to this 
problem? I note that H.R. 1158 provides for a wholesale 
transfer of various agencies, assets, and authorities. H.R. 525 
details how parts of the Federal Government should be 
reorganized. Is there any easier way to do this without 
providing a significant disruption of our agencies? I propose 
that to both of our panelist.
    Mr. Ellis. Well, of course, the two polar opposites are 
doing a radical reorganization, a very fundamental 
reorganization, on the one hand, and putting in place some 
coordinating mechanism de minimis, on the other hand. And then 
you have a whole array of things along the spectrum. What 
suggests itself is the logic of the thing, sir, is that 
whatever it is that you contemplate doing would well benefit 
from a consideration of the benefits of that change and the 
costs of that change with respect to what it is that you are 
trying to do.
    So I would come at it from a different way. I would not say 
there is a danger in creating this bureaucracy, that 
bureaucracy, or not doing enough to reorganize. I would rather 
say whatever it is that is contemplated one would benefit from 
considering what the costs and benefits are in reckoning what 
would be most appropriate.
    Mr. Decker. Mr. Gilman, I would only state that, of the 
three proposals, Representative Skelton's is to discuss the 
homeland security strategy. And a strategy may shake out some 
of the details that might indicate a better approach to dealing 
with what he calls antiterrorism and consequence management.
    If you go back to Presidential Decision Directive No. 39 
and No. 62, which deal with combating terrorism, they make a 
distinction between crisis and consequence management to 
prevent, deter, and then actually respond after an incident. I 
suspect that regardless of the proposals of H.R. 525 or H.R. 
1158, those issues of how you actually prevent, protect, 
prepare, and respond might be clearer based upon the mechanism 
that you select.
    Mr. Gilman. I think what you are both telling us is that 
there probably is no easier way of approaching this problem 
than a major reorganization. Am I correct?
    Mr. Ellis. I would not necessarily say that, sir. Any time 
you do a major reorganization there are costs that are incurred 
and you just have to look at the benefits on the other side. On 
the other hand, if one takes a coordinating kind of an 
approach, then it may be the case that in the coordination the 
agencies that are commanded from the White House or whatever 
through this and that may resist or may come here and seek to 
mobilize Members of Congress on their behalf, and all kinds of 
things like that. So this is not an easy problem to solve. 
There is no silver bullet.
    Mr. Gilman. That is why I am addressing the problem, to see 
if there is any easier way of taking 40-some agencies where 
this problem has been proliferated and then $11 billion that we 
are talking about and try to put it all into one easier method 
of addressing this problem. And apparently, from what you are 
both saying, that is not possible.
    Mr. Ellis. No, sir, I would not say that. I have not been 
clear. What I would suggest to you is that in H.R. 525 and in 
H.R. 1292, what you have is more coordinating approaches that 
do not have within the many major reorganization and the costs 
that would be incurred in such a reorganization. On the other 
hand, if you take the one that does create the major new agency 
and does put a lot of pieces of agencies together in doing 
that, there may be costs that are incurred in doing that but 
the benefits may vastly outweigh the costs. I do not know 
without considering that very, very carefully. Have I been 
clear, sir?
    Mr. Gilman. Yes, you are clear. But it still leaves a major 
problem for all of us.
    Mr. Decker, do you want to comment further?
    Mr. Decker. No, sir. I think the issue is complex as Dr. 
Ellis said, there is no silver bullet. Whether you rework what 
is existing and strengthen the mechanism that exists, or 
reorganize and create a new organization, we would be unable to 
advise you which is the better approach.
    Mr. Gilman. I want to thank both of you. Thank you, Mr. 
Chairman.
    Mr. LaTourette. Thank you, Mr. Gilman.
    Mr. Putnam, questions?
    Mr. Putnam. Thank you, Mr. Chairman. I thank the panel for 
their insightful discussion of this issue, that all of us are 
led to more questions than to more answers as a result.
    Tell me how this country is inherently at greater risk 
today than we were at the time of the 1984 Olympics, or the 
1996 Olympics, or the 1994 Trade Center bombing? What has 
substantively changed that we are at a much greater risk today? 
And what have been our successes in preventing terrorism and 
terrorist attacks such that we have had as few as we have up 
till this point? In other words, what is working?
    Mr. Ellis. Of course, Congressman, you will have an 
opportunity to address those issues to representatives of some 
of these commissions that have done this work in a subsequent 
panel, and I hope very much that you will do that.
    There are many things. There is the rapid advance of 
technology, and not just the rapid advance of technology that 
is related to weaponry, but the proliferation of some of that 
technology. So that while it could be said 20 years ago that it 
would be unlikely for somebody who was a loner with just a few 
bucks here and there to be able to create a biological weapon 
that could be effectively deployed and cause extraordinary 
damage in terms of human casualties and perhaps animal 
casualties, today the science we are given to understand, and 
there still is controversy about this, has advanced to the 
point and proliferated to the point where it is no longer 
impossible to think about somebody who is a loner with a few 
bucks being able to do something like that. That is one thing.
    Another thing is the increase, as has been pointed out by 
one of the commissions, in the vast intercourse between 
different countries, there are a whole lot of things and people 
coming in here and leaving here and it is really very difficult 
to watch all of that with great care. And there are other 
things as well. But perhaps that begins to give you some sense 
why some people believe that there is more danger now than 
there was before. But I would urge you, sir, to address that 
question again to the following panel.
    Mr. Decker. Mr. Putnam, I would only concur with Dr. Ellis. 
I think when the representatives from the Hart-Rudman and the 
Gilmore commissions speak, they have looked at that at great 
length. I would only comment that when you talk about weapons 
of mass destruction dealing with the biological, chemical, 
radiological, nuclear, and high explosives, when discussing 
combating terrorism, and then factor in cyber attack or cyber 
warfare, it is a much different scenario today than it was in 
1984. We are a much more vulnerable country as a result of our 
computer reliance and the way that the world is evolving with 
electronics.
    I would only suggest that these new and emerging threats 
require new, probably non-traditional thoughts on how to solve 
these issues. That is why this hearing is very refreshing, 
because it does look at proposals other than what we have today 
which are not working as well as they could or should.
    Mr. Ellis. And then you also have the issue of motivation 
in which at least one of the commission reports pointed out 
there are numerous persons and whole social elements that do 
not regard us as friendly. But also inside the United States 
there are many people who are hostile to the Government, not 
just to the particular regime, but to this Government itself. 
And those things have changed the nature of the dangers that 
confront us as a democracy.
    Mr. Putnam. Mr. Caldwell?
    Mr. Caldwell. Let me address your question about some of 
the successes now that my colleagues have talked a little bit 
about the threat and how that has changed. There have been 
several successful arrests of terrorists overseas related to 
certain terrorist attacks. There is cooperation between the 
intelligence community and law enforcement going on to carry 
out those kinds of arrests. There has also been a greater 
preparation for high visibility special events like the 
Olympics. The Atlanta Olympics is one that you mentioned. There 
was really a great deal of cooperation among Federal agencies 
there in terms of coordinating security. I think more recently 
agencies coordinated efforts on the cyber threat in terms of 
preparing for the millenium and Y2K. And related to that, we 
had the December 1999 arrests on the border with Canada of 
suspects who intended to commit terrorist acts. And finally, 
there are activities going on with the intelligence community 
to prevent terrorist actions that are better suited to discuss 
in a closed session or to be discussed by the intelligence 
community. We are aware of some of those preventive actions, 
but we do not have the details. Thank you.
    Mr. Putnam. I am aware of the emerging threats, and our 
reliance on computer technology, and the interconnectedness of 
important functions of Government, and our reliance on a single 
power grid, and things of that nature. But I also reflect on 
the fact that the worst terrorist incident carried out on 
American soil was as crude an incident as it could possibly be 
and could just as easily have been committed 50 years ago as 50 
years from now in the sense that fertilizer and diesel fuel 
will be fairly common and widespread. And so, just as the 
threat hierarchy did not register that while we would be 
refueling a ship in Yemen as a major action to be prepared for, 
I guess my point is that as we become more and more 
sophisticated and develop a system to react to more 
sophisticated threats, we cannot abandon the crude ones that 
have always been around and are oftentimes the most accessible 
to small groups. Affordability is a factor and the impact is 
often just as deadly. Thank you.
    Mr. LaTourette. Thank you, Mr. Putnam.
    Mr. Platts, do you have questions?
    Mr. Platts. Thank you, Mr. Chairman.
    To our witnesses, for your testimony and efforts on this 
important issue, thank you. Actually, just one question. It 
regards Mr. Thornberry's legislation, H.R. 1158, and the 
delineation of the specific offices or agencies to be included. 
And perhaps coming from the State House of Pennsylvania and 
serving on our Veterans' Affairs Emergency Preparedness 
Committee and interact with our Guard troops a fair amount, and 
wonder whether any of you would see the Bureau of National 
Guard being an agency that should be delineated as being 
included, maybe as a separate entity, as a distinct entity, but 
within the Homeland Security Agency, since we rely on the Guard 
both for emergency response, disaster relief, maintaining civil 
order when there are major incidents here in the homeland, 
whether the Bureau of National Guard should be spelled out as 
one of those agencies to be part of the Homeland Security 
Agency?
    Mr. Decker. Mr. Platts, I cannot comment directly on the 
National Guard being incorporated in the Homeland Security 
Agency proposal. But I can state that currently there are a 
number of civil support teams which are comprised of National 
Guardsmen that support at the State level any assistance that 
would be required from DOD. According to the DOD IG report, 
this program is not as effective as it should or could be, 
however, there is hope that it will improve with remedial 
attention.
    If these civil support teams do turn out to be as effective 
as they are hoped to be, they will be a benefit to the State 
authorities in a terrorist incident involving a weapons of mass 
destruction incident.
    Mr. Ellis. I have no further comment.
    Mr. Platts. The reason for whether it should be a distinct 
entity and spelled out is because in many cases, as I said, 
they are our first kind of response team so often and they kind 
of have that dual role of being DOD when they are federalized 
but really are State entities. And when I think of 
coordination, here in this very agency there needs to be great 
coordination because of their dual role to begin with, let 
alone in this type of situation. So that is why I throw that 
out. It is something that maybe we need to look at if H.R. 1158 
is to move forward.
    Thank you, Mr. Chairman.
    Mr. LaTourette. Thank you, Mr. Platts.
    Before we let you gentlemen go, Mr. Caldwell, I have been 
told that you are one of the smartest guys around on this 
issue. So I want to avail myself of that wisdom before you 
leave. Specifically, as the subcommittees think about marking 
up this legislation, I understand you may have some 
observations about how the council proposed by Mr. Gilchrest's 
legislation, H.R. 525, is comprised and how it operates, and 
specifically in section 651, where his legislation talks about 
the voting and the nonvoting members. Have I been led astray, 
or do you in fact have some observations that you think would 
be important to us?
    Mr. Caldwell. We provided some technical comments to your 
staff in terms of that bill and some of its provisions. In 
terms of the way H.R. 525 is set up now, there is an executive 
chairman who would serve in the President's place and yet there 
is also an executive director. Perhaps if both positions were 
filled by the same person, it might add accountability. That 
person would be the focal point but would also be responsible 
for the staff and the day to day coordination. That was one 
aspect of H.R. 525 that we commented on.
    Also, in terms of the voting, there is a voting structure 
there in H.R. 525 and we are not quite sure how that would 
work. If you had the President voting, I think his vote would 
probably count more than, say another person on the council who 
was "the weakest link," just to use your analogy. We had some 
other technical comments of a more specific nature and we can 
provide those for the record.
    Mr. LaTourette. If you could put those in writing for the 
record, that will I think help us as we move forward to markups 
on the legislation.
    I want to thank all three of you for your wonderful 
testimony today. And thank you for helping both subcommittees 
as we continue our work.
    Mr. LaTourette. I now want to call to the table the last 
panel of witnesses we have today. First, we will have General 
Charles G. Boyd, who is the Executive Director for the U.S. 
Commission on National Security for the 21st Century; General 
James Clapper, who is the Vice Chairman of the Advisory Panel 
to Assess Domestic Response Capabilities for Terrorism 
Involving Weapons of Mass Destruction; Mr. Frank J. Cilluffo, 
who is the director of the terrorism task force of the Center 
for Strategic and International Studies; and Dr. Amy E. 
Smithson, a senior associate with the Henry L. Stimson Center.
    Again on behalf of both subcommittees, we thank you very 
much for attending today. Without objection, as with the other 
two panels, your full and complete written observations will be 
included in the record. I would make this observation, because 
we want to hear from you in a number of questions, if you could 
just summarize your observations to us in 5 minutes. I think we 
are going to vote at about 6 and we do not want to be cut short 
or keep you here while we go over and do that.
    So with that, General Boyd, I would invite you to begin.

 STATEMENTS OF GENERAL CHARLES G. BOYD, USAF (RET.), EXECUTIVE 
 DIRECTOR, U.S. COMMISSION ON NATIONAL SECURITY/21ST CENTURY; 
   LIEUTENANT GENERAL JAMES CLAPPER, JR., USAF (RET.), VICE 
     CHAIRMAN, ADVISORY PANEL TO ASSESS DOMESTIC RESPONSE 
     CAPABILITIES FOR TERRORISM INVOLVING WEAPONS OF MASS 
   DESTRUCTION; FRANK J. CILLUFFO, CENTER FOR STRATEGIC AND 
INTERNATIONAL STUDIES; DR. AMY E. SMITHSON, DIRECTOR, CHEMICAL 
 AND BIOLOGICAL WEAPONS NONPROLIFERATION PROJECT, THE HENRY L. 
                         STIMSON CENTER

    General Boyd. Well, first of all, sir, as a citizen, may I 
compliment you on this process that is underway here. I wish 
every civics class in every school in America could be 
observing how the Congress is wrestling with a very tough 
problem and providing the forum for earnest debate. This is 
democracy at its best I think, and you are to be congratulated. 
And I am honored by participating in this process. I will, in 
fact, submit my written statement for the record. But let me 
highlight a few quick points and then we will get on to the 
question and answer period.
    With respect to the three pieces of legislation that you 
have under observation, I think they all have merit and they 
all are working in the direction of an overall solution to this 
terribly difficult problem. I think they are all right in one 
degree or another. I think Mr. Gilchrest is right in that the 
solution begins with the President. I am not sure that a 
separate council needs to be created in that this is a national 
security issue and it ought to be thought as such. And, 
therefore, the National Security Council with the President as 
its head is the place where the solution begins. Mr. Skelton is 
right in the development of a strategy is the very first step. 
Unless we know what it is that we are trying to do, it is 
pretty difficult to figure out how to organize in order to get 
it done.
    But I would be deeply dismayed if you stopped there and 
waited until some future time to address the type of 
organization or the organizational construct necessary to deal 
with the full dimension of this problem. I think Mr. Thornberry 
goes to the hard part, that of moving the existing capabilities 
into some kind of a coherent organizational construct vested 
with authority, responsibility, and by that, I mean 
accountability, and resources. He said it eloquently and I do 
not think I can improve on that.
    But I would add, because it has been a separate discussion 
item, that somehow collecting all of the capabilities that we 
now have into a response structure is a radical solution. I do 
not see it that way. I think it is no different than putting 
the existing capabilities that we have, military capabilities 
into a Department of Defense in 1947. And if it is our choice 
to either disrupt existing bureaucratic comfort levels or 
improving the security of our Nation, I think I would opt for 
the latter choice.
    May I suggest, sir, a couple of other points that if you 
were to put together a more comprehensive piece of legislation 
here that you might want to consider.
    None of the pieces under consideration now addresses 
directly the role of the Department of Defense, tangentially 
yes, but not directly. And it is clear that DOD assets would 
have to be engaged in any weapons of mass destruction attack on 
U.S. soil. The Hart-Rudman Commission recommends the creation 
of an Assistant Secretary of Defense for Homeland Security to 
pull together the increased effort the Department must take in 
that area, and it also recommends that the National Guard be 
given more responsibility for homeland security missions 
without, of course, negating its overseas expeditionary 
capabilities.
    Second, none addresses completely the issue of 
intelligence, although two of the pieces of legislation do 
address it in some way. In our view, this is not adequate. I 
think that the Commission's recommendation is that the National 
Intelligence Council include homeland security and asymmetric 
threats as a dedicated area of analysis and it assign that 
portfolio to a national intelligence officer, and that the 
community produce regular NIEs, or National Intelligence 
Estimates, on these threats.
    Third, none addresses adequately the issue of congressional 
oversight. Clearly, the reporting obligations embodied in these 
resolutions do address the issue of oversight to some degree. 
But the Commission believes that more needs to be done. It 
recommends that Congress deal with homeland security more or 
less as it has dealt with intelligence oversight. It should 
establish a special body including members of all relevant 
congressional committees as well as ex officio members from the 
leadership of the House and Senate. Members should be chosen 
for their expertise in foreign affairs, defense, intelligence, 
law enforcement, and appropriations.
    The proper legislative branch vehicle to oversee homeland 
security policy seems to us would go far to ensure that all 
homeland security issues are managed in such a way as to 
protect civil liberties. But because Mr. Kucinich has 
highlighted this terribly important concern, I would add that a 
complete bill would underscore the oversight responsibilities 
embedded in this institution, establishing the standards and 
reporting requirements any national homeland security agency 
must adhere to.
    I await your questions respectfully, sir.
    Mr. LaTourette. Thank you, General Boyd.
    General Clapper.
    General Clapper. Mr.Chairman, members of the subcommittees, 
I am pleased to be here today representing Governor Gilmore who 
is out of the country on a mission for the Commonwealth of 
Virginia. I would like to offer three general comments.
    First, before getting into the specifics of what you asked 
us to talk to, like General Boyd, I would like to commend the 
two subcommittees and the sponsors and cosponsors of the bills 
that are under consideration for their recognition of the 
importance of the issues and their dedication in keeping them 
visible to the public and to the rest of the Congress. I would 
point out also that the fact that these bills have been 
introduced is probably yet additional testimony to the 
widespread discomforture with the current setup we have and the 
recognition that we as a Nation are not optimally postured to 
combat terrorism in all its dimensions.
    In the interest of truth in advertising, I would like to 
point out a crucial characteristic of the Gilmore panel, which 
I represent today, and that is that it is heavily populated and 
influenced by professional representatives of the State and 
local levels whose perspective, in my view, is absolutely 
critical in any such deliberation. They, in fact, represent our 
first line of defense against a terrorist attack in this 
country, and the composition of our panel has driven and shaped 
our approach accordingly.
    To many at the State and local levels the structure and 
processes at the Federal level for combating terrorism appear 
uncoordinated, complex, and confusing. In fact, the charts on 
display here are extracted from our first annual report that we 
issued some 14 months ago. I think they are illustrative of at 
least the perception of the problem at particularly the State 
and local level. Many State and local officials believe that 
Federal programs intended to assist them are often created and 
implemented without their input. I would hope that whatever 
legislation emerges from this body considers that input first.
    We acknowledge that a lot of good work has been done to 
foster Federal interagency coordination in the last 
administration. As one example, let me commend the national 
plan for combating acts of terrorism in America developed by 
the Interagency Board for Equipment Standardization and 
Interoperability. However, overall, we believe the current 
structure and processes are inadequate for the following 
reasons, a lot of which we have already talked to today: Lack 
of political accountability, insufficient program and budget 
authority, lack of staff resources, and, from our perspective 
particularly, lack of State, local, and functional expertise.
    For the purposes of this hearing, we used 12 major 
attributes of the recommendations that we made as criteria for 
assessing all three bills under consideration. In my written 
testimony I discuss each bill in the context of these 
attributes. Also included is a functional comparative matrix 
that we drew up to better illustrate those differences and 
similarities visually, in comparison to what the Gilmore panel 
has advocated.
    One area where all three bills seem to agree, as do we, is 
on the need for a true national strategy. We have talked about 
that quite a bit already.
    All three bills, again as we do, seem to endorse the need 
for improved intelligence assessments and dissemination of 
critical information, an area which is particularly near and 
dear to my heart, having spent 37 years in one capacity or 
another in the intelligence business.
    I want to comment specifically on one aspect of H.R. 1158, 
introduced by Congressman Thornberry, which endorses the 
recommendation of the Hart-Rudman Commission pertaining to the 
organization of a Homeland Security Agency. The Gilmore panel 
looked hard at several organizational models for the 
Government, one of which was an embellished FEMA. In fact, we 
considered recommending FEMA as an 11th cabinet department but 
which, at the end of the day, we rejected.
    We came to the conclusion that, given the wide range of 
capabilities that must be included in the totality of thwarting 
and responding to terrorism horizontally across all the Federal 
departments and agencies as well as vertically with the State 
and local levels, we did not think it feasible, necessary, or 
appropriate for any of these organizations necessarily to 
abrogate their responsibilities. Furthermore, even if a 
Homeland Security Agency were established, it would still be in 
the awkward position of attempting to discipline or police 
those cabinet rank departments which have responsibilities for 
combating terrorism and would continue to do so even with 
forming a Homeland Security Agency.
    We have reservations about the concept of selectively 
moving some law enforcement agencies--but not all--to a 
Homeland Security Agency. This will disrupt the agencies being 
transferred and will, we believe, jeopardize the tremendous 
working relationship with FEMA. In the minds of some, such an 
organization begins to suggest a ministry of interior, which 
potentially raises the specter, if not the reality, of jeopardy 
to constitutional and civil rights.
    Rather, what we contend is needed is a national strategy 
that functionally synchronizes these elements and has someone 
who is authoritatively in charge, who is politically 
accountable, and who reports to the President or the Vice 
President.
    After 2 years of pretty intense study and debate, the 
Gilmore Commission has concluded the existing organizations--
Federal, State, and local--possess the respective capabilities 
needed to defend our homeland. What we are missing are the 
vision, the strategy, the leadership, and what I would call the 
authoritative coordination apparatus and processes to bring all 
these disparate pieces together when the situation demands that 
we do so.
    Finally, on a personal note, I "got religion" about 
terrorism as a member of the commission which investigated the 
Khobar Towers terrorist bombing in 1996. This is an issue, as 
you have heard today, that is not partisan politically. It goes 
to the very heart of public safety, our values, and our way of 
life.
    On behalf of Governor Gilmore and the other members of our 
panel, we urge the Congress and the executive branch to come 
together and bring some order to this issue. As I said when I 
testified before Congressman Shays' subcommittee last month, 
our most imposing challenge centers on policy and whether we 
have the collective fortitude to forge change both in 
organization and process. I would again respectfully observe 
that we have studied the topic to death and what we need now is 
action.
    Thank you very much for this opportunity. I stand ready to 
address your questions.
    Mr. LaTourette. Thank you, General.
    Mr. Cilluffo.
    Mr. Cilluffo. Chairman LaTourette, distinguished members, I 
appreciate the opportunity to be before you today on this 
important matter. My parents taught me that if I do not have 
anything nice to say about someone else's ideas then I should 
not say anything at all. And that rule goes double if it comes 
from Congressmen. I believe that by now my parents have 
forgiven me, and I hope that after today you will too.
    These three legislative proposals and the recent set of 
hearings on the subject clearly demonstrate the issues 
surrounding terrorism and homeland defense and are receiving 
the attention they demand. Congress has recognized that a 
vacuum exists and is taking active steps to fill it. I would 
especially like to commend Congressmen Gilchrest, Thornberry, 
and Skelton for their leadership and for subjecting their 
legislative proposals to public examination and comment. We 
have before us a rare opportunity for cooperation, not just 
within Congress but also with the executive branch, and we 
should take full advantage of it.
    Cooperation with the executive branch is crucial to turn 
concepts into capabilities. I think we need to have the bumper 
sticker ``Need to Cooperate, Not Mandate.'' The United States 
is now at a crossroads. As things presently stand, there is 
neither assurance that we have a clear capital investment 
strategy nor a clearly defined end state, let alone a clear 
sense of the requisite objectives to reach this goal. The 
dimensions, as we have heard, are enormous. No single Federal 
agency owns the strategic mission completely. At the moment, 
however, many agencies are acting independently in what needs 
to be a coherent response. Unfortunately, to date, the whole 
has been less than the sum of its parts.
    In considering how to proceed, we should not be afraid to 
wipe the slate clean and take a fresh look at the issue. We 
must ask ourselves what has worked to date, what has not 
worked, and what are the gaps and shortfalls in our current 
policies, practices, procedures, and programs. In so doing, we 
must be willing to press fundamental assumptions of our 
Nation's security: Are our organizations and institutions 
adequate? We cannot afford to look at the world through our 
current alphabet soup of agencies and their respective 
organizational charts. In their proposed legislation, 
Congressmen Gilchrest, Thornberry, and Skelton have done just 
that.
    I offer these comments in the spirit of the hearing; 
namely, to determine the best course of action. And in order to 
keep my remarks within the time allotted, I am going to touch 
only on some of the recommendations for improvement and not 
discuss their many strengths. And ultimately, of course, it 
remains up to you, Congress, and the executive branch to 
jointly decide which of these avenues or combination thereof 
should be pursued.
    First, some over-arching objectives. In short, our 
antiterrorism and counterterrorism capabilities must be 
strengthened, streamlined, and then synergized so that 
effective prevention will enhance domestic response 
preparedness and vice versa. A complete CBRN (chemical, 
biological, radiological, nuclear) counterterrorism strategy 
involves both preventing an attack from occurring, which 
includes deterrence, nonproliferation, counterproliferation, 
and preemption, and two, preparing Federal, State, local, and 
private sector capabilities to respond to an actual attack.
    All too often these elements of strategy are treated in 
isolation. It must incorporate both the marshalling of domestic 
resources and the engagement of international allies and 
assets. It also requires monitoring and measuring the 
effectiveness of the many programs that implement this strategy 
so as to lead to common standards, practices, and procedures.
    The Homeland Security Strategy Act of 2001 might be 
improved by requiring a series of threat assessments and a 
sequence of reviews of the comprehensive strategy. The threat 
environment is a moving target and will likely evolve. So too 
must our response.
    Moreover, homeland defense cuts right to federalism issues. 
Any legislation should ensure that State and local governments 
are at the heart of the matter.
    To focus the efforts of the various agencies with 
antiterrorism and counterterrorism capabilities, we need a high 
level official to serve as the belly button or the focal point 
to marry up the three criteria that have now been discussed to 
death--authority, accountability, and resources.
    In our report, we recommend a Senate-confirmed position of 
assistant to the President or Vice President for combatting 
terrorism. The assistant would be responsible for issuing an 
annual national counterterrorism strategy and plan that would 
serve as the basis for recommendations regarding the overall 
level of counterterrorism spending as well as how that money 
should be allocated among the various departments and agencies 
with counterterrorism responsibilities. The assistant would 
also be granted limited certification and pass-back authority. 
After all, policy without resources is rhetoric. And I think 
this gets to the point that Mr. Gilman brought up earlier.
    The National Homeland Security Agency Act, introduced by 
Mr. Thornberry, may be a wise course to pursue in the long 
term, but a determination can only be made after a careful 
review. Presently, we require a near-term solution.
    Currently, many Federal agencies have a vested interest in 
combatting terrorism whether at home or abroad. Arguably, the 
greatest breakdown does not occur at the operational level but 
at the juncture where policy and operations meet. What is 
lacking is a clear method of integrating these various 
responses, getting everyone to pull in the same direction at 
the same time, if you will. We need to recognize the cross-
cutting nature of the challenge and not think vertically within 
our respective stovepipes.
    As a first step in this direction, FEMA needs to be 
empowered to assume the lead role in domestic response 
preparedness. We must capitalize FEMA with personnel as well as 
administrative and logistical support and assign FEMA the 
training mission for consequence management which now resides 
at the Department of Justice. While FEMA has distinguished 
itself when responding to a series of natural disasters, the 
same cannot be said of its national security missions. Put 
bluntly, it has become the ATM machine for chasing hurricanes.
    An additional point that I wish to make concerns the role 
of the Department of Defense, and I will be very brief here. 
Realistically, only DOD even comes close to having the manpower 
and resources for high consequence yet low likelihood events 
such as a catastrophic CBRN terrorist attack on the homeland. 
But, obviously, their role should be entirely in support of 
civilian authorities. Though we need to make sure that DOD has 
the resources to assume this responsibility. We do not want to 
turn to the cupboard and find it empty when we need it.
    Perhaps it is just me, but I find it difficult to believe 
that in a time of genuine crisis the American people would take 
issue with what color uniform the men and women who are saving 
lives happen to be wearing.
    The Preparedness Against Domestic Terrorism Act of 2001, by 
Mr. Gilchrest, might be improved by ensuring that it does not 
artificially divide international terrorism from domestic 
terrorism. International diplomacy is an essential first step 
in preventing terrorist attacks. We need not look further than 
what the Jordanian authorities did last year during the 
millennium celebrations--they saved many American lives. It is 
a clear reminder that our efforts must start abroad, and 
transnational problems must include some form of transnational 
solutions. And, of course, the role of intelligence cannot be 
underestimated.
    Our first priority should always be to get there before the 
bomb goes off. Yet we should also know that, no matter how 
robust, our intelligence capabilities will never be robust 
enough to prevent all acts all the time, and that those first 
on the scene to a no warning event are State and local 
personnel--police, fire fighters, and medics--and time is of 
the essence to turn victims into patients. The value of 
training and exercising also must not be underestimated. 
Hopefully, it is the closest we will get to the real thing, 
and, if not, it allows us to make the big mistakes on the 
practice field and not on Main Street, Somewhere, USA.
    In closing, we must expand the national security policy 
planning table to include everyone whose voice must be heard. 
Since bioterrorism is primarily a medical and public health 
issue, these communities must be mobilized and integrated into 
our national efforts. We should also work to leveraging the 
pharmaceutical and commercial and biotechnology sectors, as we 
heard earlier.
    The sixth anniversary of the Oklahoma City bombing and the 
recent bombing of the USS Cole remind us that antiterrorism and 
counterterrorism efforts must be a continued and sustained 
focus of our Nation's security efforts. We have learned lessons 
about terrorism the hard way and the time has come to apply 
what we have learned. If the President and Congress set their 
sights on developing, implementing, and sustaining such 
efforts, it will happen. And I am confident that President Bush 
and Vice President Cheney, in conjunction with these 
committees, can and will rise to the challenge.
    Thank you for giving me the opportunity to express my 
views.
    Mr. LaTourette. Thank you, Mr. Cilluffo.
    Dr. Smithson.
    Dr. Smithson. Thank you. Comparatively few of those who 
have been setting U.S. policies on how best to prepare this 
nation to confront the specter of unconventional terrorism have 
ever pulled victims from the rubble left behind by hurricanes, 
earthquakes, or for that matter bombs, nor have they steered 
the implementation of measures to contain the spread of an 
infectious disease like Ebola.
    Since an unconventional terrorist attack would create a 
disaster that has much in common with the calamities that this 
nation's HAZMAT teams, emergency department physicians and 
nurses, police, city emergency managers, and public health 
officials confront on a routine basis, it stands to reason that 
their experience and pragmatism should be the driving force 
behind the Federal Government's approach to terrorism 
preparedness. These are the very individuals that I have been 
listening to. And if more people in Washington would do the 
same not only would this nation's Federal preparedness programs 
be streamlined, they would cost less and the nation's 
preparedness would be increased manifold.
    My remarks today amplify the voices of public health and 
safety officials that I interviewed from 33 cities in 25 states 
from February of 1999 to September of last year. Since the 
publication of the resulting report, which is titled Attacksia 
my coauthor Leslie-Anne Levy and I have continued to interact 
with front-line officials from these and other cities on an 
almost daily basis. For those interested in an unvarnished 
account of the level of preparedness in America's cities and a 
common-sense approach to readiness, I have been told that 
Attacksia is not only an illuminating but an entertaining read. 
So, by all means, dig in.
    Local and state officials would be immensely relieved if 
somebody was definitively put in charge of Federal programs. 
They find the current situation confusing--over 90 training 
programs and multiple equipment grant programs, each with 
different deadlines, areas of emphasis, hoops, and guidelines. 
They long ago lost track of the number of Federal rescue teams 
that have been beefed up or created from scratch.
    The intent of the original architects of domestic 
preparedness--Senators Sam Nunn, Richard Lugar, and Pete 
Domenici--was to help the nation's first responders get better 
prepared to grapple with the aftereffects of an unconventional 
terrorist attack. Instead, money has been buckshot across over 
40 Federal agencies. Last year the U.S. Government spent many 
billions on terrorism readiness but only $315 million went to 
assist local responders. Clearly, this effort has gone far off 
track.
    Given this topsy-turvy state of affairs, local officials 
and I would applaud your efforts to wrest order from the 
spaghetti-like maze that now constitutes the Federal 
organizational chart. Of the three bills introduced, H.R. 525 
holds the most promise because of its proposals to consolidate 
coordination and oversight to avoid recreating the wheel and to 
shut down superfluous programs.
    In contrast, H.R.1158 would create a new government agency. 
Among the things to keep in mind when considering this bill is 
a twist on the maxim with which you are quite familiar--all 
politics are local. Well, so are all emergencies. If you study 
the case histories of disaster responses, you will figure this 
out. What I wonder is why Washington does not get this point.
    The key to domestic preparedness lies not in bigger 
terrorism budgets or in more Federal bureaucracy, but in 
smarter spending that enhances readiness at the local level. 
Any improvements in local preparedness would, I remind you, 
enhance the ability of hometown rescuers to respond to everyday 
emergencies, and that is a dual-use benefit that your 
constituents would no doubt welcome.
    Although the best of the three proposed laws, H.R.525 would 
not be a perfect solution, as if such a thing even existed. For 
brevity's sake, I will simply list ways to enhance the bill, 
and I would be delighted to expand on the rationale behind 
these recommendations in Q&A.
    First, ground the council's work in reality by specifying 
that its executive chairman or director have extensive local 
disaster and emergency management experience.
    Second, broaden the council's elimination authority to 
apply to spurious programs--Federal rescue teams and federally-
funded state terrorism preparedness response teams.
    Third, institute a government-wide moratorium on any new 
rescue teams and bureaucracies until the council completes its 
initial assessment of the sufficiency of existing programs.
    Fourth, assign the council to take the appropriate steps to 
see that preparedness training is institutionalized in local 
police and fire academies as well as in medical and nursing 
schools nationwide.
    Fifth, mandate that the council articulate a plan to jump-
start Federal efforts devoted to public health and medical 
community readiness. Such programming should feature regional 
hospital planning grants and additional tests of disease 
syndrome surveillance systems followed by plans to establish 
such capabilities nationwide.
    Sixth, and finally, require that the council develop a plan 
to sustain preparedness over the long term.
    With that, I will stop, echoing the comments by others that 
encourage Congress to coordinate its own oversight activities. 
I look forward to your questions.
    Mr. LaTourette. Thank you, Dr. Smithson. I am glad that in 
your testimony you brought up the notion of first responders. I 
would note while this panel was testifying we have been joined 
by some first responders. Chief Chepalo from the Chicago 
Heights Fire Department and members of the National EMT 
Association have been kind enough to join this hearing.
    The first question I would have is for you, Dr. Smithson, 
and then maybe you, General Clapper, relative to your 
observations that our activities should be focused on State and 
local preparedness. My first question was, and I think you 
answered it so I am not going to ask it, but that is your view 
that first responder funding has been adequately addressed in 
previous budgets. And I assume your answer to that would be no.
    The next question then that I have is when we look at some 
of the programs--I just had all the fire chiefs in my district 
together because of the fire bill that was passed in the last 
Congress and President Bush has indicated that he will fund the 
$100 million that is called for for fire equipment and 
training--the distribution as I look at it is about half goes 
to new stuff, equipment, versus half training. I understand why 
the need for new equipment is there. We have fire departments 
in this country that are driving around in 35 year-old 
vehicles, some, if they are lucky, some, those 35 year-old 
vehicles are their only and best piece of equipment. So I 
certainly understand why the need for equipment is there. But 
just any comment that you might have about the emphasis that we 
place on new equipment versus training, because your 
observations seem to talk more about training and getting 
people ready and prepared to deal with what is ahead than 
necessarily having the new hook and ladder truck.
    Dr. Smithson. One of the things I think you will find, as 
you have, when you talk with the first responders is that they 
can be quite resourceful with what they have. In fact, while 
the Defense Department first approached them with all sorts of 
equipment to decontaminate victims, one of the things that they 
came back with was how they could use the equipment they 
already have to accomplish the same task. So while it is 
reasonable to expect that some jurisdictions would want to buy 
and would need to buy specialized equipment, especially 
personal protective gear, they would all point out to you is 
that they need funds to exercise their skills in this area. If 
they do not exercise their capabilities then they atrophy. So a 
balance needs to be found there.
    Another balance that needs to be found is between what the 
Federal Government funds and what local jurisdictions fund. The 
state of Florida has passed a disaster preparedness tax. If 
other states in this country would do the same then perhaps a 
strategy could be found for maintaining disaster preparedness 
over the long term without having the Federal Government foot 
the entire bill.
    Mr. LaTourette. OK. Thank you.
    General Boyd, General Clapper, observations on that? 
Mr.Cilluffo?
    General Boyd. I think I would agree. We were out last week 
to talk to the Governor of Colorado on just these sort of 
issues, what is the role in their view of the Federal 
Government and what do they need, and explaining how we had in 
our report addressed our view of how we should deal with the 
State and local level. Our own discussion with people at the 
State and local level, clearly, they are looking for some kind 
of centralized--they would like to know one number to call. 
They would like some kind of coherent system of training where 
the marriage of Federal and State capabilities come together. 
So I think there is much merit there. I do not know that I 
disagree.
    I do believe that a cabinet level organization, which we 
have called for, in the National Security Agency, some agency 
of that stature and that kind of clout within our own 
bureaucracy is absolutely going to be necessary. If you can 
muster the capabilities at the Federal level, then articulate 
the needs in a way and come over here and be accountable to the 
Congress to get those capabilities down to the State and local 
level, I think that is essential.
    Mr. LaTourette. OK. Thank you.
    General Clapper, anything you want to add?
    General Clapper. I would vote, given the Hobson's choice of 
picking between equipment and training, from what I have been 
able to glean, I would lean on the side of training and 
education and the ability to draw on support on a mutual 
supporting basis from others, other communities, from the State 
at-large, or, if required, from the Federal level.
    One of the features of our national office for 
counterterrorism is a senior staff element that would focus 
specifically on the issue of training and exercises.
    Mr. LaTourette. Thank you.
    Mr. Cilluffo, is there something nice you would like to say 
about this question?
    [Laughter.]
    Mr. Cilluffo. Just very briefly. I do not see the two as 
mutually exclusive. Obviously, it comes down to how much--the 
devil is in the details--specifically how much you are 
allocating to one over another. But I think that for starters 
you need benchmarks; you do need standards, you do need common 
protocols, you do need common procedures. So then you can spend 
wiser. So I think it is an issue of how do you best spend your 
money.
    And there is just one conceptual point I want to make. I do 
not see it as a top-down or a bottom-up approach when we look 
at this holistically as a Nation. It is that box where the two 
come together. Those are the real hard questions we need to 
grapple with. Whether it is a civil liberties issue, obviously, 
we should never infringe upon our liberties in order to 
preserve them; or whether it is the openness and security 
issue, you do not want to build up too many walls or the bad 
guys win by default because our way of life has been lost. But 
I do not see it as mutually exclusive. I do not see these as 
either/ors. I see these as ways to augment one another.
    Mr. LaTourette. Thank you.
    Mr. Kucinich.
    Mr. Kucinich. I would like to step back a minute and have 
kind of a more general discussion. For anybody, what would you 
define as terrorism? Anyone, since this is all about terrorism, 
define terrorism.
    General Clapper. It is an attack on the U.S./U.S. interests 
that is not in the conventional mode of a military attack and 
may resort to weapons of mass destruction or weapons of mass 
disruption, either chemical, biological, nuclear, or cyber.
    Mr. Kucinich. So does this bill then have only to do with 
that and no other kind of terrorism? Only to deal with weapons 
of mass destruction?
    General Clapper. Or disruption.
    Mr. Kucinich. Mr. Cilluffo?
    Mr. Cilluffo. Which bill specifically?
    Mr. Kucinich. Any of the bills that we are talking about 
here in terms of this national homeland defense.
    Mr. Cilluffo. No. I do not see them as treating merely the 
chemical, biological, radiological, nuclear threat. The issue 
is how do you amalgamate them all and how do you have the stars 
aligning where the different pieces can come together. I do see 
a possibility where you can have this assistant to the 
President, give it some teeth, give it some budget authority, 
then you have the council that oversees that, and then you 
might have an organization two years out.
    Mr. Kucinich. Let me be more specific. What do you define 
as terrorism in terms of the meaning of these bills, as you 
understand it?
    Mr. Cilluffo. On top of whatever else it may be, it is a 
criminal act. I take sort of the top out. But on top of 
whatever else is motivating it, whether it is politically, 
whether it is radically religious, is it a criminal act. Shed 
the ideology from the definition.
    Mr. Kucinich. And since we are talking about a coordination 
of local, State, and Federal, would it be a criminal act that 
is committed locally against a government building, for 
example, or against local law enforcement authorities?
    Mr. Cilluffo. Could be.
    Mr. Kucinich. General?
    General Boyd. In the excellent staff work that your staff 
put together for this hearing, there are three different 
definitions, which goes I guess in some ways to part of the 
problem: There is the FBI's definition, the Department of 
State's definition, the Department of Defense definition. But 
they all deal at some level with the intent that goes into the 
act. I will just read you this one sentence which I think is 
representative: ``The calculated use of violence or the threat 
of violence to inculcate fear intended to coerce or to 
intimidate governments or societies in the pursuit of goals 
that are generally political, religious, or ideological.'' That 
seems to be the element. I think that the act is intended to 
coerce or persuade or frighten people for a specific purpose 
and, whatever tools you use, that is what is at issue.
    Mr. Kucinich. Right. Has anyone here ever read the Kerner 
Commission Report, the National Commission on Civil Disorders? 
Anyone? Do you even know about it? Did you ever hear about it? 
Anyone know?
    [No response.]
    Mr. Kucinich. The Kerner Commission Report actually 
examined the reasons for violence in American cities in the 
late 1960's. And based on some of the definitions that are 
being bandied about here, it would occur that this new national 
strategy could be taken by some as a license to become involved 
in intelligence, deterrence, prevention along the lines that 
the Kerner Commission explored in terms of the civil disorders. 
Anyone want to comment on that? Are we looking at these groups, 
focusing in on American cities where, because of high poverty 
and a number of other social conditions, people begin to 
express their discontent in very aggressive ways? Anyone want 
to try that?
    Dr. Smithson. Your concerns about infringement upon civil 
liberties are ones that we should all take note of. The three 
pieces of legislation do not really address that, but the 
appropriate firewalls can be put in a bill so that those 
concerns are addressed. That should be done. I do not think the 
intent was to have the CIA start snooping on U.S. citizens, but 
to leave the apparatus that normally handles intelligence-
gathering in the United States within its current powers, not 
to expand those powers through any of these bills. So, put in 
the firewalls and I think you will find your concerns 
addressed.
    Mr. Kucinich. Thank you. Mr. Chairman, and thank you for 
your indulgence. Just one final comment I would like to make.
    Mr. LaTourette. Sure. Go ahead.
    Mr. Kucinich. In these hearings and in these discussions, 
it seems that one of the problems that we have here is that we 
end up raising the level of concern about terrorism out of 
proportion to its incidence. There is an old Yiddish proverb: 
To a worm in horse radish the whole world is horse radish. I am 
just offering some horse radish for you.
    Mr. LaTourette. Thank you, Mr. Kucinich, very much.
    Mr. Putnam.
    Mr. Putnam. Thank you, Mr. Chairman.
    General Boyd, in your opening remarks you made the 
statement about your three points and the third point was 
oversight and the fact that more needs to be done. You made the 
analogy to the way that we handle intelligence. The point that 
occurred to me, and I would just like your observation or your 
feedback on it, is that really what we are talking about here, 
whether it is coordinated through the Executive Office of the 
President or coordinated through a new agency yet to be 
determined, we are talking about some coordination or 
facilitation of information, of intelligence. We are not really 
talking about training agricultural inspectors to diffuse a 
nuclear weapon, or Customs inspectors to recognize foot and 
mouth disease, but we are talking about some kind of 
collaboration so that each knows what the other is looking for 
and that they can identify it and that there can be some effort 
in a seamless manner to protect our borders.
    So, in addressing the institutional problem of how to 
coordinate all of this, isn't the Intelligence Committee the 
proper place to do that because most of what we are talking 
about is information or intelligence, classified in some cases, 
in others it is not?
    General Boyd. Certainly, that is where it begins. In the 
strategy that we articulate, the components of the strategy 
that we recommend in our report are three--prevention, 
protection, and response. In the prevention, at the outset you 
have to have a robust intelligence capability to do exactly 
what you are talking about. And that is not just domestic, that 
is overseas. That is identifying and addressing the threats as 
they emerge, wherever they emerge from. We call for, and 
believe fervently in, enhancing all of the levels of 
intelligence that we now have. That is a fundamental piece.
    But that is not where you stop. Then once you have some 
sense of where the threats are coming from, you have to deal 
with them, you have to address them in a variety of ways. And 
you drift right on in through that prevention component into 
the protection component. And if you fail, you have to have a 
robust capability to respond in the aftermath, deal with the 
consequences. Intelligence is key, but it is by no means where 
it all ends.
    Mr. Putnam. So, again, with the protection and dealing with 
the consequences, we are still talking about a facilitation of 
existing agencies, whether it is beefing up and cross-training 
local first responders or coordinating the efforts of the FBI 
with local law enforcement and things of that nature. If you 
were to adopt the approach of a new agency, how large an agency 
would we be comprehending?
    General Boyd. We need to keep in perspective we are talking 
about using existing capabilities and organizations that now 
exist, not creating new ones, and rearranging them in some 
coherent fashion so they can deal with this issue exclusively. 
I do not see agency growth. I do not know how much the 
Department of Defense grew when it was created by absorbing 
capabilities that already existed and putting them together in 
a more coherent structure. I do not know. Over time the 
Department grew but for reasons other than the fact that it was 
reorganized in that way to begin with.
    Mr. Putnam. Is there any other? Dr. Smithson?
    Dr. Smithson. I think it would be quite optimistic to think 
that they would not be building more jobs at the Federal level 
by creating a new agency. Even when some components are taken 
out of one agency to put it in this new one, the agency that 
had personnel moved over is still going to retain a staff 
because they still have some responsibilities and they simply 
will not cede that turf 100 percent.
    Think of "homeland defense" as something that is in every 
U.S. community, not as something vested in Federal 
bureaucracies that, in all likelihood, cannot get there in time 
to respond and save lives for a chemical disaster. Federal 
personnel can certainly be there in time to help cleanup and to 
help the communities recover in the aftermath, but creating 
more Federal bureaucracy and layers of interference does 
little, if anything, to assist the local and state agencies 
that would be addressing this type of disaster. FEMA can go in 
with its current capabilities and do what local officials want 
it to do, as can HHS and the Department of Defense. Let's not 
create a new agency, please.
    Mr. Cilluffo. Mr. Putnam, one point. I think that if you 
were to prioritize what we need to do, we need to target those 
issues that need to be fixed first. And I am not so sure it is 
where the rubber meets the road at the operational level. 
Whether it is from top down or whether it is from the bottom 
up, it is again where the policy and operations come together. 
It is that convergence right there. And I think that the agency 
may perhaps be a long term solution and a viable one, but I do 
not think we know enough to be able to determine whether in 
fact that is the case.
    But I do see the three legislative proposals before us can 
in some ways feed off one another. They are actually not that 
different. You can build on one. The problem is we need to make 
sure that the foreign and domestic all come as a whole because, 
you talked about a Federal agency, but I think if you were to 
look at the Congress, with all due respect, this cuts across 
every committee's jurisdiction and the disconnect between the 
authorizers and the appropriators is another challenge, that 
how to put this all together is difficult. But maybe if you 
guys come out in front, maybe the Executive Branch will follow, 
or vice versa.
    Mr. LaTourette. I thank you all. I want to thank all of our 
witnesses today. Your observations are critical as both 
committees move forward.
    Before adjourning, I do want to ask unanimous consent that 
the written observations and opening statements of our Ranking 
Member of our subcommittee, Mr. Costello of Illinois, be 
submitted for the record if he should so choose, and also the 
Ranking Member of the full committee, Mr. Oberstar of 
Minnesota.
    With that, this concludes the hearing. The meeting is 
adjourned.
    [Whereupon, at 6:02 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
[GRAPHIC] [TIFF OMITTED] 72381.001

[GRAPHIC] [TIFF OMITTED] 72381.002

[GRAPHIC] [TIFF OMITTED] 72381.003

[GRAPHIC] [TIFF OMITTED] 72381.004

[GRAPHIC] [TIFF OMITTED] 72381.005

[GRAPHIC] [TIFF OMITTED] 72381.006

[GRAPHIC] [TIFF OMITTED] 72381.007

[GRAPHIC] [TIFF OMITTED] 72381.008

[GRAPHIC] [TIFF OMITTED] 72381.009

[GRAPHIC] [TIFF OMITTED] 72381.010

[GRAPHIC] [TIFF OMITTED] 72381.011

[GRAPHIC] [TIFF OMITTED] 72381.012

[GRAPHIC] [TIFF OMITTED] 72381.013

[GRAPHIC] [TIFF OMITTED] 72381.014

[GRAPHIC] [TIFF OMITTED] 72381.015

[GRAPHIC] [TIFF OMITTED] 72381.016

[GRAPHIC] [TIFF OMITTED] 72381.017

[GRAPHIC] [TIFF OMITTED] 72381.018

[GRAPHIC] [TIFF OMITTED] 72381.019

[GRAPHIC] [TIFF OMITTED] 72381.020

[GRAPHIC] [TIFF OMITTED] 72381.021

[GRAPHIC] [TIFF OMITTED] 72381.022

[GRAPHIC] [TIFF OMITTED] 72381.023

[GRAPHIC] [TIFF OMITTED] 72381.024

[GRAPHIC] [TIFF OMITTED] 72381.025

[GRAPHIC] [TIFF OMITTED] 72381.026

[GRAPHIC] [TIFF OMITTED] 72381.027

[GRAPHIC] [TIFF OMITTED] 72381.028

[GRAPHIC] [TIFF OMITTED] 72381.029

[GRAPHIC] [TIFF OMITTED] 72381.030

[GRAPHIC] [TIFF OMITTED] 72381.031

[GRAPHIC] [TIFF OMITTED] 72381.032

[GRAPHIC] [TIFF OMITTED] 72381.033

[GRAPHIC] [TIFF OMITTED] 72381.034

[GRAPHIC] [TIFF OMITTED] 72381.035

[GRAPHIC] [TIFF OMITTED] 72381.036

[GRAPHIC] [TIFF OMITTED] 72381.037

[GRAPHIC] [TIFF OMITTED] 72381.038

[GRAPHIC] [TIFF OMITTED] 72381.039

[GRAPHIC] [TIFF OMITTED] 72381.040

[GRAPHIC] [TIFF OMITTED] 72381.041

[GRAPHIC] [TIFF OMITTED] 72381.042

[GRAPHIC] [TIFF OMITTED] 72381.043

[GRAPHIC] [TIFF OMITTED] 72381.044

[GRAPHIC] [TIFF OMITTED] 72381.045

[GRAPHIC] [TIFF OMITTED] 72381.046

[GRAPHIC] [TIFF OMITTED] 72381.047

[GRAPHIC] [TIFF OMITTED] 72381.048

[GRAPHIC] [TIFF OMITTED] 72381.049

[GRAPHIC] [TIFF OMITTED] 72381.050

[GRAPHIC] [TIFF OMITTED] 72381.051

[GRAPHIC] [TIFF OMITTED] 72381.052

[GRAPHIC] [TIFF OMITTED] 72381.053

[GRAPHIC] [TIFF OMITTED] 72381.054

[GRAPHIC] [TIFF OMITTED] 72381.055

[GRAPHIC] [TIFF OMITTED] 72381.056

[GRAPHIC] [TIFF OMITTED] 72381.057

[GRAPHIC] [TIFF OMITTED] 72381.058

[GRAPHIC] [TIFF OMITTED] 72381.059

[GRAPHIC] [TIFF OMITTED] 72381.060

[GRAPHIC] [TIFF OMITTED] 72381.061

[GRAPHIC] [TIFF OMITTED] 72381.062

[GRAPHIC] [TIFF OMITTED] 72381.063

[GRAPHIC] [TIFF OMITTED] 72381.064

[GRAPHIC] [TIFF OMITTED] 72381.065

[GRAPHIC] [TIFF OMITTED] 72381.066

[GRAPHIC] [TIFF OMITTED] 72381.067

[GRAPHIC] [TIFF OMITTED] 72381.068

[GRAPHIC] [TIFF OMITTED] 72381.069

[GRAPHIC] [TIFF OMITTED] 72381.070

[GRAPHIC] [TIFF OMITTED] 72381.071

[GRAPHIC] [TIFF OMITTED] 72381.072

[GRAPHIC] [TIFF OMITTED] 72381.073

[GRAPHIC] [TIFF OMITTED] 72381.074

[GRAPHIC] [TIFF OMITTED] 72381.075

[GRAPHIC] [TIFF OMITTED] 72381.076

[GRAPHIC] [TIFF OMITTED] 72381.077

[GRAPHIC] [TIFF OMITTED] 72381.078

[GRAPHIC] [TIFF OMITTED] 72381.079

[GRAPHIC] [TIFF OMITTED] 72381.080

[GRAPHIC] [TIFF OMITTED] 72381.081

[GRAPHIC] [TIFF OMITTED] 72381.082

[GRAPHIC] [TIFF OMITTED] 72381.083

[GRAPHIC] [TIFF OMITTED] 72381.084

[GRAPHIC] [TIFF OMITTED] 72381.085

[GRAPHIC] [TIFF OMITTED] 72381.086

[GRAPHIC] [TIFF OMITTED] 72381.087

[GRAPHIC] [TIFF OMITTED] 72381.088

[GRAPHIC] [TIFF OMITTED] 72381.089

[GRAPHIC] [TIFF OMITTED] 72381.090

[GRAPHIC] [TIFF OMITTED] 72381.091

[GRAPHIC] [TIFF OMITTED] 72381.092

[GRAPHIC] [TIFF OMITTED] 72381.093

[GRAPHIC] [TIFF OMITTED] 72381.094

[GRAPHIC] [TIFF OMITTED] 72381.095

[GRAPHIC] [TIFF OMITTED] 72381.096

[GRAPHIC] [TIFF OMITTED] 72381.097

[GRAPHIC] [TIFF OMITTED] 72381.098

[GRAPHIC] [TIFF OMITTED] 72381.099

[GRAPHIC] [TIFF OMITTED] 72381.100

[GRAPHIC] [TIFF OMITTED] 72381.101

[GRAPHIC] [TIFF OMITTED] 72381.102

[GRAPHIC] [TIFF OMITTED] 72381.103

[GRAPHIC] [TIFF OMITTED] 72381.104

[GRAPHIC] [TIFF OMITTED] 72381.105

[GRAPHIC] [TIFF OMITTED] 72381.106

[GRAPHIC] [TIFF OMITTED] 72381.107

[GRAPHIC] [TIFF OMITTED] 72381.108

[GRAPHIC] [TIFF OMITTED] 72381.109

[GRAPHIC] [TIFF OMITTED] 72381.110

[GRAPHIC] [TIFF OMITTED] 72381.111

[GRAPHIC] [TIFF OMITTED] 72381.112

[GRAPHIC] [TIFF OMITTED] 72381.113

[GRAPHIC] [TIFF OMITTED] 72381.114

[GRAPHIC] [TIFF OMITTED] 72381.115

[GRAPHIC] [TIFF OMITTED] 72381.116

[GRAPHIC] [TIFF OMITTED] 72381.117

[GRAPHIC] [TIFF OMITTED] 72381.118

[GRAPHIC] [TIFF OMITTED] 72381.119

[GRAPHIC] [TIFF OMITTED] 72381.120

[GRAPHIC] [TIFF OMITTED] 72381.121

[GRAPHIC] [TIFF OMITTED] 72381.122

[GRAPHIC] [TIFF OMITTED] 72381.123

[GRAPHIC] [TIFF OMITTED] 72381.124

[GRAPHIC] [TIFF OMITTED] 72381.125

[GRAPHIC] [TIFF OMITTED] 72381.126

[GRAPHIC] [TIFF OMITTED] 72381.127

[GRAPHIC] [TIFF OMITTED] 72381.128

[GRAPHIC] [TIFF OMITTED] 72381.129

[GRAPHIC] [TIFF OMITTED] 72381.130

[GRAPHIC] [TIFF OMITTED] 72381.131

[GRAPHIC] [TIFF OMITTED] 72381.132

[GRAPHIC] [TIFF OMITTED] 72381.133

[GRAPHIC] [TIFF OMITTED] 72381.134

[GRAPHIC] [TIFF OMITTED] 72381.135

                                    

</pre></body></html>
